               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 14-00895-163




  Healthcare Inspection - VA Patterns 

            of Dispensing 

  Take-Home Opioids and Monitoring 

     Patients on Opioid Therapy 





May 14, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                  Telephone: 1-800-488-8244
                    E-Mail: vaoighotline@va.gov
                    Web site: www.va.gov/oig
VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy



                               Glossary

   CPG           VA/DoD Clinical Practice Guideline for Management
                 of Opioid Therapy for Chronic Pain
   DoD           Department of Defense
   FDA           Food and Drug Administration
   FY            fiscal year
   g             grams
   mg            milligrams
   OEF/OIF       Operation Enduring Freedom and Operation Iraqi
                 Freedom
   PTSD          post-traumatic stress disorder
   SUD           substance use disorder
   UDT           urine drug test
   VAMC          VA Medical Center, which includes all medical
                 centers and Community-Based Outpatient Clinics
                 that are under the same facility (Director)
                 administrative leadership
   VHA           Veterans Health Administration
                  VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


                                           Table of Contents 

                                                                                                                         Page
Executive Summary ................................................................................................... i

Introduction ................................................................................................................ 1

    Purpose .................................................................................................................. 1

    Background ............................................................................................................. 1

        Pain and Opioid Use.......................................................................................... 1

        Adverse Effects of Opioid Therapy .................................................................... 2

        Selected Recommendations from the VA/DoD Clinical Practice Guideline for 

           Management of Opioid Therapy for Chronic Pain (CPG) .............................. 3

        Medication Reconciliation .................................................................................. 3

        Benzodiazepines ............................................................................................... 4

        Acetaminophen.................................................................................................. 4

    Scope and Methodology ......................................................................................... 5

        Study Population ............................................................................................... 5

            Chronic Users and Non-Chronic Users of Opioids ....................................... 6

        Data and Study Variables .................................................................................. 6

            Prevalence of Patients Dispensed Take-Home Opioids in FY 2012 ............ 7

            Baseline Characteristics ............................................................................... 7

            Dispensing Patterns ..................................................................................... 9

            Screening and Monitoring Patients on Take-Home Opioids ......................... 10

            Prevalence of Serious Adverse Effects ........................................................ 13

            Psychosocial Treatment for Pain, Pain Clinic Service, and Medication 

              Management/Pharmacy Reconciliation .................................................... 14

    Statistical Analyses ................................................................................................. 15

Results and Conclusions .......................................................................................... 16

    1. Prevalence of VA Patients Dispensed Take-Home Opioids ................................ 16

    2. Baseline Characteristics of VA Take-Home Opioid Patients ............................... 17

    3. VA Dispensing Patterns of Take-Home Opioids ................................................. 20

    4. VA Patterns of Screening and Monitoring Opioid Patients ..................................	 23

          New Patients on Take-Home Opioids ............................................................. 23

          Existing Patients on Take-Home Opioids........................................................ 26

          Active (Not in Remission) Substance Use Patients ........................................ 31

    5. VA Patterns of Providing Psychosocial Treatment for Pain, Pain Clinic 

          Service, and Medication Management/Pharmacy Reconciliation for 

          Take-Home Opioid Patients ............................................................................ 34

    6. Prevalence of Serious Adverse Effects Among Take-Home Opioid Patients ...... 36

    Conclusions ............................................................................................................ 37

    Recommendations .................................................................................................. 43

Appendixes
    A. Additional Exhibits ............................................................................................ 44

    B1. Codes for Identifying Hospice and Palliative Care ........................................... 48

    B2. VA Intermediate Product Numbers for Identifying Urine Drug Tests by Test 

             Substance Type .......................................................................................... 49

    C. Under Secretary for Health Comments ............................................................ 50

    D. OIG Contact and Staff Acknowledgments ........................................................ 58

    E. Report Distribution ........................................................................................... 59

                 VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy



                                      Executive Summary 

Introduction
As requested by the United States Senate Committee on Veterans’ Affairs, the VA
Office of Inspector General conducted a study to assess the provision of VA outpatient
(take-home) opioids and monitoring of patients on opioid therapy (hereinafter referred to
as opioid patients). Specifically, we described both the prevalence of VA patients who
filled any take-home opioid prescriptions at VA in fiscal year (FY) 2012 and their
baseline characteristics; evaluated VA dispensing patterns of take-home opioids,
including concurrent (filled) benzodiazepines, filled dose of acetaminophen, and early
refills of opioids; and assessed the extent to which VA screens and monitors opioid
patients in alignment with measures adapted from selected recommendations in the
VA/Department of Defense Clinical Practice Guideline for Management of Opioid
Therapy for Chronic Pain (hereinafter referred to as the Clinical Practice Guideline). We
also defined VA patterns of providing psychosocial treatment for pain, Pain Clinic
service, and medication management/pharmacy reconciliation for take-home opioid
patients and determined the prevalence of six selected serious clinical adverse effects
among VA take-home opioid patients that may be reasonably expected to be related to
opioid therapy.

We integrated and analyzed the VA administrative files, as well as the Death Master
Files of the Social Security Administration, for the population of nearly half a
million VA patients who filled at least 1 oral or transdermal opioid prescription from VA
for self-administration at home in FY 2012.              We followed retrospectively the
442,544 patients in the population—who did not receive any hospice or palliative care
during the FY or within 1 year prior to their first take-home opioid prescription—for their
experience with the provision of VA opioid therapy.

Results and Conclusions
We found that 7.7 percent of VA patients were on take-home opioids in FY 2012. The
VA Medical Center (VAMC)1 prevalence ranged from 0.26 percent to 21.8 percent.

A majority (92.5 percent) of the opioid patients were male, which mirrored the gender
composition of VA patients. The average and the median patient age at their first opioid
prescription in FY 2012 was 59.4 and 61, respectively. Approximately 1 in every
16 patients had served in Operation Enduring Freedom and Operation Iraqi Freedom.
Approximately 87 percent of the opioid patients were diagnosed with primary pain site2
of non-cancer origin that could result in pain serious enough to warrant an opioid
medication. Six out of 10 patients had been diagnosed with mental health issues, one
third with mood disorders, 1 of 5 with post-traumatic stress disorder, and 1 of 7 with
1
  Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) 

administrative leadership. 

2
  Seal, K. H., Y. Shi, et al. (2012). “Association of mental health disorders with prescription opioids and high-risk 

opioid use in US veterans of Iraq and Afghanistan.” JAMA 307(9): 940–947. 



VA Office of Inspector General                                                                                            i
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


substance use. Nearly 94 percent of the study population had been diagnosed with
either pain or mental health issues and 58.4 percent with both.

About one third of the opioid patients were on take-home opioids for more than 90 days
(chronic users) in FY 2012. Approximately half of the study population were new
patients in the sense that they were initiated on take-home opioid therapy during
FY 2012 after not having been on take-home opioids for at least more than 1 year.
Seven out of 10 of the non-chronic users were new patients in contrast to 1 in 5 of the
chronic users. Nearly 41 percent of the study population had been dispensed with
1 prescription. This 41 percent was composed entirely of the 61.4 percent of
non-chronic users because none of the opioids were allowed to be prescribed for more
than 90 days in 1 prescription. Patients with 6 or more prescriptions were mainly
chronic users, which amounted to 69.3 percent of that group.

Almost all (98.4 percent) patients received their prescriptions from a single VAMC, and
three quarters of the patient population had all their (filled) prescriptions issued from a
single prescriber. Most (95.0 percent) of the patients were dispensed with a single type
of opioid. More than 6 percent of patients received at least 1 long-acting opioid product,
with the percentage of chronic users being 4 times that of non-chronic users. Opioid
dosages with a morphine equivalent of at least 200 milligrams (mg)/day were dispensed
to 1.2 percent of the study population. We found that refills of opioids at least 7 days
early occurred in 23.0 percent of the population, with refills of at least 11 days early in
14.0 percent of the population.

The concurrent use of benzodiazepines and opioids can be dangerous because opioids
and benzodiazepines can depress the central nervous system and thereby affect heart
rhythm, slow respiration, and even lead to death.        We found that take-home
benzodiazepines were dispensed to 7.4 percent of the study population, with the
percentage of chronic opioid users being 1.6 times that of non-chronic users. We
determined that 71 percent of the opioid patients who received take-home
benzodiazepines were dispensed benzodiazepines concurrently with opioids. The
percentage of chronic opioid users with concurrent benzodiazepines was 92.6, and the
percentage of non-chronic users was 53.6.

Acetaminophen poisoning is a leading cause of liver toxicity. The Clinical Practice
Guideline specifically recommends not exceeding the maximum recommended daily
dose of acetaminophen. We determined that take-home acetaminophens were given to
92.3 percent of the study patients and that 2.0 percent of them were given an average
daily dose of 4 g/day or more. We found that 45.5 percent of chronic users were given
at least 1 day dosage of 4 grams or more of acetaminophen and that 43.5 percent were
given at least 1 day dosage of 4 grams or more concurrently with opioids, which was
more than double that (19.4 percent and 13.3 percent, respectively) of non-chronic
users.

The Clinical Practice Guideline calls for a urine drug test (UDT) prior to initiating opioid
therapy and a follow-up contact at least every 2–4 weeks after any change in
medication regimen. We determined that 6.4 percent of the new patients—who were


VA Office of Inspector General                                                                    ii
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


initiated take-home opioids in FY 2012 after not having been on take-home opioids for
at least more than 1 year—received both a UDT prior to and a follow-up within 30 days.
We observed broad variation among 140 VAMCs’ practice on this measure, ranging
from 1.1 percent to 32.2 percent, with the middle 50 percent of the VAMCs from
3.9 percent to 10.2 percent. This very low VA rate of screening and monitoring new
patients almost exclusively resulted from the very low rate of a UDT. We found that
7.6 percent of the new patients had a UDT within 30 days prior to initiating therapy.
Even for the high-risk group of patients who were diagnosed with substance use
disorder (SUD) within 1 year prior to the initiation of opioid therapy, a UDT was
performed for 1 out of 5 patients.

The Clinical Practice Guideline requires routine and random UDTs to confirm the
appropriate use of opioids by patients and a follow-up contact at least once every
1–6 months for the duration of opioid therapy. We determined that 37.0 percent of the
existing opioid patients—who were on take-home opioids at least from
FY 2011—received both an annual UDT and a follow-up contact within 6 months of
each filled opioid prescription, varying extensively from 4.2 percent to 91.0 percent
among VAMCs. The low VA rate of monitoring opioid patients resulted mainly from the
low rate of an annual UDT. We found that VA conducted an annual UDT for
37.9 percent of the existing opioid patients. We observed wide variation of VAMCs’
practice of conducting an annual UDT, ranging from 4.4 percent to 87.6 percent. Even
for the chronic opioid users, the annual UDT rate was 40.9 percent.

We found that 13.1 percent of the study population was diagnosed with active
substance use. The Clinical Practice Guideline specifies that chronic (for more than
1 month) opioid therapy is absolutely contraindicated in patients with active (not in
remission) SUDs who are not in treatment. It recommends that active substance use
patients receive SUD treatment concurrently with urine drug testing as an adjunctive
tool at regular intervals. For the active substance use patients who had at least 90 days
available for follow-up in FY 2012, we determined that 10.5 percent received both a
treatment for substance use and a UDT within 90 days of each filled opioid prescription.
The percentages of VAMCs varied from 0.00 to 44.8. Even for the subpopulation of
19,724 active substance use patients who were on opioids for more than 90 days in
FY 2012, we determined that only 18.8 percent of them received both an SUD treatment
in the FY and a UDT for each 90 days on opioids, with VAMC percentages ranging from
0.00 to 82.7.

Psychotherapy, including cognitive behavioral therapy, is recommended to reduce pain
and improve function in chronic pain patients. We found that 45.2 percent of the opioid
patients received at least 1 psychosocial treatment for pain and that 35.1 percent of
these patients received this treatment after their first filled opioid prescription in
FY 2012. The VAMC percentages for providing psychosocial treatments for pain
ranged from 26.9 to 93.7 in FY 2012.

Treatment of chronic pain requires care to recover or maintain physical, social, and
occupational function and may include Pain Clinic service. We determined that
8.7 percent of the opioid patients received care from a Pain Clinic. Three quarters of


VA Office of Inspector General                                                                   iii
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


the VAMCs provided Pain Clinic service to 15.0 percent or less of their opioid patients in
the FY, although 1 VAMC provided this rehabilitation service to 73.5 percent of its
patients.

Opioid patients frequently have complex co-morbid conditions, making them more likely
to be given multiple medications that can interact dangerously with opioid medications.
A review of medications by a pharmacist or other health care professional can prevent
harmful interactions between these medications. We found that 38.8 percent of the
opioid patients received medication management or pharmacy reconciliation during the
FY, with the percentages varying from 6.4 to 86.5 across the 140 VAMCs.

Increasing use of opioids has been associated with increasing rates of opioid-related
serious adverse effects. We determined percentages of opioid patients with evidence of
a serious adverse effect that may be reasonably expected to be related to opioid
therapy for the following six serious adverse effects: (1) opioid overdose, (2) sedative
overdose, (3) drug delirium, (4) drug detoxification, (5) acetaminophen overdose, and
(6) possible and confirmed suicide attempts. We found that less than 1 percent of the
population experienced each of these adverse effects during the FY, except for the
adverse effect of possible and confirmed suicide attempts that was evident in
2.0 percent of the opioid patients.

Recommendations
1.     We recommended that the Under Secretary for Health ensure that the practice of
prescribing acetaminophen is in compliance with acceptable standards.

2.     We recommended that the Under Secretary for Health ensure that VA’s practice
of routine and random urine drug tests prior to initiating and during take-home opioid
therapy to confirm the appropriate use of opioids is in alignment with acceptable
standards.

3.    We recommended that the Under Secretary for Health ensure that follow-up
evaluations of patients on take-home opioids are performed timely.

4.    We recommended that the Under Secretary for Health ensure that opioid patients
with active (not in remission) substance use receive treatment for substance use
concurrently with urine drug tests.

5.     We recommended that the Under Secretary for Health ensure that VA’s practice
of prescribing and dispensing benzodiazepines concurrently with opioids is in alignment
with acceptable standards.

6.    We recommended that the Under Secretary for Health ensure that medication
reconciliation is performed to prevent adverse drug interactions.




VA Office of Inspector General                                                                   iv
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


Comments
The Under Secretary for Health agreed with the findings and recommendations and
provided acceptable improvement plans. (See Appendix C, pages 50–57, for the full
text of the comments.) We will follow up on the planned actions until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D.
                                                          Assistant Inspector General for
                                                            Healthcare Inspections




VA Office of Inspector General                                                                   v
               VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy



                                           Introduction 

Purpose
As requested by the United States (U.S.) Senate Committee on Veterans’ Affairs, the
VA Office of Inspector General (OIG) conducted a study to assess the provision of VA
outpatient (take-home) opioids and monitoring of patients on opioid therapy (hereinafter
referred to as opioid patients). The study objectives were to:

    • 	 Describe both the prevalence of VA patients who filled any take-home opioid
        prescriptions at VA in fiscal year (FY) 2012 and their baseline characteristics.

    • 	 Evaluate VA dispensing patterns of take-home opioids, including concurrent (filled)
        benzodiazepines, filled dose of acetaminophen, and early refills of opioids.

    • 	 Assess the extent to which VA screens and monitors opioid patients in alignment
        with measures adapted from selected recommendations in the VA/Department of
        Defense (DoD) Clinical Practice Guideline for Management of Opioid Therapy for
        Chronic Pain (CPG).

    • 	 Define VA patterns of providing psychosocial treatment for pain, Pain Clinic
        service, and medication management/pharmacy reconciliation for take-home
        opioid patients.

    • 	 Determine the prevalence of six selected serious clinical adverse effects among
        VA take-home opioid patients that may be reasonably expected to be related to
        opioid therapy.

Background
Pain and Opioid Use. The Institute of Medicine reported that pain affects 100 million
adults in the U.S. at a cost of up to $635 billion each year in medical treatment and lost
productivity.3 The report concluded that to reduce the impact of pain and the resultant
suffering required cultural transformation on how pain is perceived and judged by
people with pain and health care providers who care for them.

More than 50 percent of all veterans enrolled and receiving care at VHA are affected by
chronic pain, which is a much higher rate than in the general adult population.4
Veterans who suffer from chronic pain also experience much higher rates of other
co-morbidities (post-traumatic stress disorder (PTSD), depression, traumatic brain
injury) and socioeconomic dynamics (disability, joblessness) that may contribute to the
challenges of pain management when treated with opioids.

3
  Committee on Advancing Pain Research, Care, and Education; Institute of Medicine (2011). Relieving Pain in
America: A Blueprint for Transforming Prevention, Care, Education, and Research, The National Academies Press.
4
  Statement of Dr. Robert L. Jesse, M.D., Principal Deputy Under Secretary for Health, Veterans Health
Administration, Before the Subcommittee on Health, U.S. House of Representatives, October 10, 2013.


VA Office of Inspector General                                                                               1
               VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


In 1998, the VHA National Pain Management Strategy was initiated, which established
pain management as a national priority. The overall objective of the strategy is to
develop a comprehensive, integrated system-wide approach to pain management that
reduces pain and suffering and improves quality of life for veterans experiencing acute
and chronic pain. In 2009, VHA issued a directive5 for the improvement of pain
management consistent with the VHA National Pain Management Strategy.

In 2003, VA and DoD published the first Clinical Practice Guideline for Management of
Opioid Therapy for Chronic Pain (CPG) to improve pain management, quality of life, and
quality of care for veterans. The CPG was revised in 2010 to update the evidence base
of the original CPG.6 Additionally, the scope was widened to include patients with
cancer who have chronic pain because of cancer or the treatment they are receiving.

Opioid therapy is intended for patients who suffer from moderate to severe chronic pain
and who have been previously assessed and treated with non-opioid or
non-pharmacological therapy with no response or with limited success or response and
who may benefit from opioid therapy for pain control. Opioids are powerful medications
that can help manage pain when prescribed for the right condition and when used
properly. However, if prescribed inappropriately or if used improperly, they can cause
serious harm, including overdose and death. Patient adherence with the proper use of
opioids is crucial in the delivery of appropriate opioid therapy. Patient assessments,
follow-up evaluations, and urine drug tests (UDTs) are recommended monitoring tools
for safe and effective use of opioids.

Adverse Effects of Opioid Therapy. While opioids are useful for managing chronic
pain, adverse effects are potential limitations to their use.7 Therefore, providers need to
weigh the risks against the benefits of opioid use either alone or in combination with
other medications that could cause adverse effects, such as benzodiazepines, and
against expected effects such as constipation.                For opioid patients taking
acetaminophen products, providers must be aware of the maximum recommended daily
dose of acetaminophen.

Even a single large dose of opioids can cause severe respiratory depression or death.
Long-term use or abuse of opioids can lead to physical dependence, a normal
adaptation to chronic exposure, and addiction. In cases of long-term use or abuse,
withdrawal symptoms may occur if opioids are too rapidly reduced or stopped without
tapering. These symptoms can include restlessness, muscle and bone pain, insomnia,
diarrhea, vomiting, and involuntary leg movements.

In general, extreme caution must be used when prescribing opioids with other
substances that depress the central nervous system (CNS), such as benzodiazepines,


5
  VHA Directive 2009-053, Pain Management, October 28, 2009.

6
  http://vaww1.va.gov/PAINMANAGEMENT/docs/CPG_opioidtherapy_fulltext.pdf. Last accessed 

December 19, 2013. 

7
  Swegle, J. M. and C. Logemann (2006). “Management of common opioid-induced adverse effects.” 

Am Fam Physician 74(8): 1347–1354. 



VA Office of Inspector General                                                                     2
                VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


because in combination, there is an increased risk of life-threatening respiratory
depression.8

Selected Recommendations from the VA/DoD Clinical Practice Guideline for
Management of Opioid Therapy for Chronic Pain (CPG).9 The CPG provides
education and guidance on chronic (more than 1 month) opioid therapy to providers.
However, some CPG recommendations are applicable to all patients on opioid therapy,
regardless of the length of time. Specifically, the CPG provides the following
recommendations for urine drug tests (UDTs), follow-up evaluations, and bowel
regimen:

    • 	 UDTs. The CPG recommends routine and random UDTs prior to initiation of and
        during opioid therapy (p. 59). The frequency of UDTs should be increased based
        on risk level for aberrant drug-related behaviors and following each dose increase
        (pp. 51 and 60). The risk of opioid misuse in patients on opioid therapy is reported
        to be as high as 30 percent (p. 59), and patients with a history of substance use
        disorder (SUD) are at higher risk of developing problematic drug use, addiction, or
        relapse. UDTs can identify patients using illicit substances and can assist in the
        diagnosis of SUD. They can also help identify patient adherence to opioid therapy
        and drug diversion.

    • 	 Follow-up evaluations. The CPG recommends scheduled follow-up visits at least
        every 2–4 weeks after any change in medication regimen and at least once every
        1–6 months for the duration of opioid therapy (p. 82). Patients are to be assessed
        for effectiveness of opioid therapy, adverse effects, and adherence to therapy
        (p. 82). Pertinent laboratory studies are to be performed as necessary. Patients
        with certain medical conditions require more frequent follow-up visits. These
        include patients with significant respiratory depression, asthma, chronic obstructive
        pulmonary disease, obstructive sleep apnea, paralytic ileus, anxiety disorder,
        personality disorder, increased risk of suicide, and SUD history.

    • 	 Bowel regimen. The CPG recommends routine initiation of a bowel regimen that
        includes both a stimulant and a stool softener at the commencement of opioid
        therapy and patient assessment for opioid related adverse effects at every office
        and follow-up visit (p. 70).

Medication Reconciliation. Medication reconciliation ensures the maintenance of
accurate, safe, effective, and above all, patient centered medication information.10 One
of the Joint Commission’s national patient safety goals is medication safety by
maintaining and communicating accurate patient medication information.11


8
  Jones, J. D., S. Mogali, et al. (2012). “Polydrug abuse: a review of opioid and benzodiazepine combination use.” 

Drug Alcohol Depend 125(1–2): 8–18.

9
  http://vaww1.va.gov/PAINMANAGEMENT/docs/CPG_opioidtherapy_fulltext.pdf. Last accessed 

December 19, 2013. 

10
   VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

11
   The Joint Commission Sentinel Event Alert, Issue 35, January 25, 2006. 



VA Office of Inspector General                                                                                         3
                VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


VHA requires that medication reconciliation be performed across the continuum of care,
including outpatient encounters, to prevent adverse drug interactions. VHA also
requires that patients be educated about their medications prior to or at the time of
dispensing according to the patient’s individualized drug regimen.12 Clinicians are
required to discuss necessary drug information, potential drug interactions, and
necessary laboratory tests for monitoring medication therapy outcomes and to evaluate
the medication order to ensure appropriate dosing, taking into account the renal and
liver function of the patient. Prior to initiating opioid therapy, the CPG recommends that
providers carefully evaluate potential drug interactions (such as methadone with
benzodiazepines and fentanyl with alcohol and other CNS depressants) (p. 25).

Benzodiazepines.       Benzodiazepines are a type of psychoactive (mind-altering)
medication known as tranquilizers that are most often prescribed to treat anxiety, acute
stress reactions, panic attacks, seizures, and sleep disorders. They are one of the most
widely prescribed medications in the U.S., particularly among elderly patients. Familiar
names include Valium® and Xanax®. Benzodiazepines act on the CNS to slow its
function and promote relaxation, thereby reducing muscle tension and other physical
symptoms of anxiety.         Benzodiazepines may cause respiratory depression in
susceptible patients. Therefore, they generally should not be used with opioids
because the combination increases the risk of life-threatening respiratory depression.

Benzodiazepines have the potential for abuse. They can be chronically abused, or
intentionally or accidentally taken in overdose. While death and serious illness rarely
result from benzodiazepine abuse alone, the concurrent use of benzodiazepines and
opioids can be dangerous because both depress the CNS.13 Benzodiazepines have
been strongly associated with death from opioid overdose.14

Acetaminophen. Acetaminophen (for example Tylenol®) is a type of medication used
to relieve pain and reduce fever. It is among the most commonly used drugs in the U.S.
In addition to its availability as an over-the-counter product, acetaminophen is used in
many prescription products in combination with other drugs, usually opioids, such as
codeine (Tylenol with Codeine®), hydrocodone (Vicodin®), and oxycodone
(Percocet®). The labels of acetaminophen-containing drug products may not spell out
the whole word or may have an abbreviation such as APAP.

Acetaminophen poisoning is a leading cause of liver toxicity.15 In a consumer update
posted to its website, the Food and Drug Administration (FDA)16 pointed out that



12
   VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006. 

13
   Jones, J. D., S. Mogali, et al. (2012). “Polydrug abuse: a review of opioid and benzodiazepine combination use.” 

Drug Alcohol Depend 125(1–2): 8–18.

14
   Toblin, R. L., L. J. Paulozzi, et al. (2010). “Mental illness and psychotropic drug use among prescription drug

overdose deaths: a medical examiner chart review.” J Clin Psychiatry 71(4): 491–496. 

15
   Larson, A. M., J. Polson, et al. (2005). “Acetaminophen-induced acute liver failure: results of a United States 

multicenter, prospective study.” Hepatology 42(6): 1364–1372. 

16
   http://www.fda.gov/downloads/ForConsumers/ConsumerUpdates/UCM239891.pdf. Last accessed 

November 27, 2013.



VA Office of Inspector General                                                                                      4
                 VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


“Overdoses from prescription products containing acetaminophen account for nearly
half of all cases of acetaminophen-related liver failure in the U.S., many of which result
in liver transplant or death.”         Aimed at reducing acetaminophen risks, on
January 13, 2011, the FDA announced its requirement for a boxed warning on all
prescription acetaminophen products that highlights the potential risk for severe liver
injury. Boxed warnings are the FDA’s strongest warnings for prescription drug products
and are used for calling attention to serious or life-threatening risks.

Most current guidance requires that patients consume no more than 4 grams (g) of
acetaminophen per day. However, the FDA recommends less than 4 grams per day17
because of concerns about acetaminophen’s widespread availability and because
patients are often not aware of and may not inform their providers about other
acetaminophen use.

Scope and Methodology
The study population contains all VA patients who filled at least 1 oral or transdermal
opioid prescription from VA for self-administration at home in FY 2012 and who did not
receive any hospice or palliative care during the FY or within 1 year prior to their first
take-home opioid prescription. In addition to following the patients retrospectively
through the end of the FY, we also looked back to evaluate whether they filled any
opioid prescriptions for take-home use and whether they experienced certain medical
conditions during FY 2011. Our study period minimizes background shifts in opioid
provision in VA because the VA/DoD Clinical Practice Guideline for Management of
Opioid Therapy for Chronic Pain was updated in May 2010. The study population
encompasses some Operation Enduring Freedom and Operation Iraqi Freedom
(OEF/OIF) era veterans as well as veterans from other service eras (non-OEF/OIF),
such as Operations Desert Shield and Desert Storm. As a result, the outcomes that we
observed in this population may be different from those of OEF/OIF veterans only.18

To address the study objectives, we reviewed pertinent policies, regulations, and
procedures on opioid therapy. We also conducted a literature review on opioid use for
pain management. We met and discussed opioid therapy guideline adherence with VA
subject matter experts. Additionally, we researched VA administrative databases.

Study Population. We included all VA patients who filled any oral or transdermal
take-home opioid prescriptions from a VA outpatient pharmacy or consolidated mail
outpatient pharmacy in FY 2012 and who did not receive any hospice or palliative care
in the FY or within 1 year prior to their first filled prescription.

We identified the study population using the VA Decision Support System (DSS)
National Data Extract (NDE) Pharmacy SAS Datasets, which contain all VA filled
inpatient and outpatient prescription records. We first identified opioid products using

17
  http://www.fda.gov/Drugs/DrugSafety/ucm239821.htm. Last accessed January 17, 2014. 

18
  Seal, K. H., Y. Shi, et al. (2012). “Association of mental health disorders with prescription opioids and high-risk 

opioid use in US veterans of Iraq and Afghanistan.” JAMA 307(9): 940–947. 



VA Office of Inspector General                                                                                        5
                VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


the following 10 types of opioids in VA’s National Drug File:19 (1) codeine, (2) fentanyl,
(3) hydrocodone, (4) hydromorphone, (5) meperidine, (6) methadone, (7) morphine,
(8) oxycodone, (9) oxymorphone, and (10) tapentadol. We created the opioid list for our
study by including the 1,736 opioid products in the 10 selected opioid types that were
categorized as U.S. Drug Enforcement Administration (DEA) schedule II or III controlled
substances in the National Drug File. All the opioids selected for this study are oral
medications only except for fentanyl, which also comes in transdermal form.

We then searched the VA Pharmacy SAS data file to identify VA patients for the study
by including all those patients who filled at least 1 prescription of the opioids on our list
in FY 2012 for take-home use. We then linked all these patients with VA administrative
inpatient and outpatient (including fee basis care) treatment (SAS medical data) files to
identify and then exclude those patients who received hospice or palliative care
(Appendix B1) anytime in FY 2012 or within 1 year of their first take-home opioid
prescription.

Chronic Users and Non-Chronic Users of Opioids. We classified the study population
into two subpopulations, chronic users and non-chronic users of opioids, based on the
number of days they were on opioids. We defined patients as chronic users of
opioids if they were on opioids for more than 90 days in FY 2012 and as non-chronic
users if they were on opioids 90 days or less. Rather than a simple sum of the number
of supply days from all filled prescriptions, we counted overlapping supply days from
different prescriptions once only for the number of days on opioids. For example, if a
patient filled 1 prescription that supplied opioids from March 3, 2012, through
March 10, 2012, then filled another prescription that supplied opioids from
March 8, 2012, through March 14, 2012, we counted the number of days on opioids as
12 instead of 15 after taking into account the overlapping supply days from
March 8, 2012, to March 10, 2012. Exhibit X1 in Appendix A shows our calculation of
days on opioids for a patient with 5 filled prescriptions.

Data and Study Variables. After we identified the study population, we then linked the
population to FY 2011 and FY 2012 VA administrative SAS medical data files to find
information on VA clinical visits and associated clinical diagnoses, the VA Laboratory
SAS data files to obtain detailed urine drug test records, and the FY 2011 VA Pharmacy
SAS data file to check for any filled opioid prescriptions for take-home use during that
FY.

To determine patients’ vital status as of the end of FY 2012, we also used the Death
Master Files of the Social Security Administration, vital status data from the VA Mini
Vital Status, the Beneficiary Identification Records Locator Subsystem (BIRLS), the
National Cemetery System (NCS), and the Patient Treatment File (PTF). We
considered that a patient died in FY 2012 if:

     •   the death date was within the FY, and

19
  The National Drug File lists drugs approved by the FDA and is created and maintained by VA with specific
information, including national drug code, strength, dosage form, unit of measure, and manufacturer.


VA Office of Inspector General                                                                               6
                 VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


     • 	 after the death date, we did not find any filled take-home prescription records for
         both opioid and benzodiazepine in FY 2012 and did not find any outpatient
         encounters in FY 2012 and FY 2013 (as of April 19, 2013) VA SAS outpatient
         treatment files.

Prevalence of Patients Dispensed Take-Home Opioids in FY 2012. We defined the
prevalence as the percent of patients who filled any take-home opioids at VA during
FY 2012. For prevalence by VA Medical Center (VAMC), if a patient received opioid
prescriptions from different VAMCs, this patient was counted in each of the VAMC’s
prevalence. However, a patient’s multiple prescriptions from one VAMC were counted
exactly once for that VAMC’s prevalence.

Baseline Characteristics. We defined a medical condition as a baseline condition if it
was diagnosed within 1 year prior to (or at the time of) the patient’s first filled opioid
prescription in FY 2012. We considered a patient to have a mental health diagnosis if
the patient was diagnosed with any specific codes within the category of Mental
Disorders (290–319) of the International Classification of Diseases, Ninth Revision,
Clinical Modification (ICD-9-CM). The category of Mental Disorders of ICD-9-CM
corresponds to the Diagnostic and Statistical Manual of Mental Disorders, Fourth
Edition, Revised (DSM-IV-R). Except for the category of psychological pain, we used
Hoge’s definitions20 to create the following specific categories of mental health
diagnosis based on the following ICD-9-CM diagnostic codes:

     •   A
         	 djustment disorders: 309.0, 309.24, 309.28, 309.3, 309.4, 309.9.

     •   P
         	 ost-traumatic stress disorder (PTSD): 309.81.

     • 	 Anxiety disorders excluding PTSD: 300.00, 300.01, 300.02, 300.21, 300.22,
         300.23, 300.29, 300.3, 308.3.

     • 	 Mood disorders: 296.0, 296.2–296.7, 296.80, 296.89, 296.90, 300.4, 301.13, 311.

     • 	 Major depression: 296.2, 296.3.

     •   P
         	 ersonality disorders: 301.0, 301.2, 301.4, 301.50, 301.6, 301.7, 301.81–301.84,
         301.89, 301.9.

     • 	 Psychotic disorders: 295.1–295.4, 295.6, 295.7, 295.9, 297.1, 297.3, 298.8, 298.9.

     • 	 Substance use: 291, 292 (except 292.2), 303–305 (except 305.1 and 305.8).

     •   A
         	 lcohol-related disorders: 291, 303, 305.0.

     • 	 Drug-related disorders: 292 (except 292.2), 304, 305.2–305.7, 305.9.

20
  Hoge, C. W., S. E. Lesikar, et al. (2002). “Mental disorders among U.S. military personnel in the 1990s:
association with high levels of health care utilization and early military attrition.” Am J Psychiatry 159(9):
1576–1583.


VA Office of Inspector General                                                                                   7
                 VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


     • 	 Psychological pain: 307.80 and 307.89.

We used Seal’s definitions21 to determine whether a patient was diagnosed with any
primary pain. These primary pain site diagnoses included ICD-9-CM non-cancer
diagnostic codes that could result in pain serious enough to warrant an opioid
medication:

     • 	 Arthritis: 710 (except 710.5), 711, 713, 714, 715, 716, 717, 718, 719.70,
         719.75–719.79, 720.0, V13.4.

     • 	 Back pain: 720–724 (except 720.0, 723.4, 723.8), 756.1.

     • 	Fractures: 733.1, 733.93–733.98, 800–829, 905.0–905.5, V13.51, V13.52,
        V54.0–V54.2, V66.4, V67.4.

     • 	 Generalized pain: 780.96.

     • 	 Headaches: 307.81, 339, 346 (except 346.6), 784.0.

     • 	 Musculoskeletal pain: 725, 726 (except 726.70, 726.73, 726.79, 726.91), 728.11,
         728.12, 728.81, 728.83, 728.86, 728.89, 728.9, 729 (except 729.2, 729.3, 729.6,
         729.81, 729.82), 781.99, 830–848, 905.6, 905.7, V43.6, V43.7, V48.3, V49.6,
         V49.7.

     • 	 Neuropathy: 053.13, 072.72, 337.0, 337.1, 353–357, 377.33, 377.34, 377.41.

     • 	 Other pain: 730, 733.0, 780.96.

     • 	 Reproductive pain: 614, 615, 616.11, 616.2–616.9, 617, 625.1–625.3, 625.5,
         625.7, 625.8 626.3, 626.5.

     • 	 Visceral pain: 550 (except 550.9), 551.0–551.2, 552.0–552.2, 560.81, 562.01,
         562.03, 562.11, 562.13, 567.2, 567.8, 569.5, 574, 575.0, 575.1, 577.0, 577.1, 592,
         594, 596, 788.0, 789.0, 789.6.

     • 	 Wound injury: 860–887 (except 873.63), 890–897, 900–904, 905.8, 905.9, 906,
         907.2, 908.0–908.4, 925–929, 940–949, 952.

We determined that a patient was diagnosed with pain of the nervous system and sense
organs if we found 1 of the following ICD-9-CM diagnostic codes in the category of pain
of the nervous system and sense organs:

     • 	 Acute pain: 338.1.

     • 	 Chronic pain: 338.2.


21
  Seal, K. H., Y. Shi, et al. (2012). “Association of mental health disorders with prescription opioids and high-risk
opioid use in US veterans of Iraq and Afghanistan.” JAMA 307(9): 940–947.


VA Office of Inspector General                                                                                          8
                VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


     •   Neoplasm-related pain: 338.3.

     •   Chronic pain syndrome: 338.4.

We deemed a patient was diagnosed with pain if he or she had a diagnosis of primary
pain site and/or pain of the nervous system and sense organs.

Dispensing Patterns. The CPG (p. 18) recommends more careful monitoring of opioid
patients treated with benzodiazepines as co-administration of these products may result
in adverse drug interactions. Benzodiazepines have been strongly associated with
death from opioid overdose22 and with an increased risk of death due to methadone
toxicity.23 We determined whether the patients were receiving benzodiazepines
concurrently with opioids. We defined a patient as having received concurrent
benzodiazepine and opioid prescriptions in FY 2012 if the patient had at least 1 filled
take-home opioid prescription with supply days that overlapped with the supply days of
at least 1 filled take-home benzodiazepine prescription. For the study, we included the
2,112 benzodiazepine products from the National Drug File within the following
14 types of benzodiazepines: (1) alprazolam, (2) chlordiazepoxide, (3) clorazepate,
(4) diazepam, (5) estazolam, (6) flurazepam, (7) halazepam, (8) lorazepam,
(9) midazolam, (10) oxazepam, (11) prazepam, (12) quazepam, (13) temazepam, and
(14) triazolam. For each patient in the study population, we searched the FY 2012 VA
Pharmacy SAS data file to look for any filled benzodiazepine prescription records based
on our list.

The CPG specifically recommends (p. 52) that “When using combination products, do
not exceed maximum recommended daily doses of acetaminophen, aspirin, or
ibuprofen.” We evaluated whether the patients were receiving acetaminophen for use
at home within recommended doses. We first generated a list of drug products
(including opioids) containing acetaminophen through a string searching the National
Drug File for “ACETAMINOPHEN,” “APAP,” and “ACE.” Next, we removed any drugs
with the string “ACETONE” or “ACETY.” The list included 9,502 drug products
containing acetaminophen. Then, from the VA Pharmacy SAS data file, we found all
records of take-home acetaminophen prescriptions, if any, filled in FY 2012 for each
patient in the study. We calculated daily doses based on days on acetaminophen,
which takes into account the overlapping supply days from different acetaminophen
prescriptions in a similar way as we did for days on opioids.

We calculated morphine equivalent dose for each filled opioid prescription using the
formula (Quantity * Strength * Potency factor) to standardize opioid doses across
different types of opioids.24 The daily morphine equivalent was calculated as the sum of


22
   Toblin, R. L., L. J. Paulozzi, et al. (2010). “Mental illness and psychotropic drug use among prescription drug

overdose deaths: a medical examiner chart review.” J Clin Psychiatry 71(4): 491–496. 

23
   Caplehorn, J. R. and O. H. Drummer (2002). “Fatal methadone toxicity: signs and circumstances, and the role of

benzodiazepines.” Aust N Z J Public Health 26(4): 358–362; discussion 362–353. 

24
   Korff, M. V., K. Saunders, et al. (2008). “De facto long-term opioid therapy for noncancer pain.”

Clin J Pain 24(6): 521–527. 



VA Office of Inspector General                                                                                        9
                 VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


the morphine equivalents for each filled opioid prescription in FY 2012 divided by the
number of days on opioids during the FY.

We defined early refill of opioid prescriptions as the same opioid medication
(standardized based on generic name, route of administration, and dosage form) that
was dispensed before the end of any prior prescriptions. As an example, we would not
consider CODEINE 60MG/ACETAMINOPHEN 300MG CAP as an early refill if the
previous prescription was CODEINE 60MG/ACETAMINOPHEN 300MG TAB, because
of the different dosage forms—the former is a capsule while the latter is a tablet.
Researchers have used early refill of more than 7 days as a proxy of high-risk opioid
behavior.25 Exhibit X2 in Appendix A compares concurrent use and early refills.

All opioids cause slowing of intestinal motility; thus, constipation is an anticipated
negative outcome of opioid therapy. The CPG strongly recommends initiating a bowel
regimen for all patients who are prescribed an opioid to prevent and treat constipation
(pp. 37 and 67). We considered that a bowel regimen was provided to a patient if we
found in the FY 2012 VA Pharmacy SAS data file at least 1 filled laxative prescription for
that patient from any of these VA drug classes:26 GA201, GA202, GA203, GA204,
GA205, GA209, and RS300.
Screening and Monitoring Patients on Take-Home Opioids. The CPG specifies
screening and monitoring opioid patients by urine drug tests (UDTs) and patient
follow-up contacts. It strongly recommends use of UDTs to assess illicit drug use and
adherence to prescribed medications. A UDT should be obtained prior to opioid
initiation and randomly at follow-up visits to confirm the appropriate use of opioids
(CPG, p. 37). We searched UDT records in the VA Laboratory SAS data files for each
patient in the study population to determine whether a patient received any UDTs. A
urine sample may be used to test for one substance or multiple substances. We
categorized a UDT by test substance into one or all of the following three specific types
(Appendix B2):

     (1) Heroin or morphine

     (2) Non-morphine opioid compounds

     (3) Non-opioid abusable substances

The CPG specifies (p. 82) that patients should have follow-up contact with their provider
at least every 2–4 weeks after any change in medication regimen and at least once
every 1–6 months for the duration of opioid therapy. We searched VA administrative
files for each patient in the study population to determine whether a patient received any

25
   Seal, K. H., Y. Shi, et al. (2012). “Association of mental health disorders with prescription opioids and high-risk 

opioid use in US veterans of Iraq and Afghanistan.” JAMA 307(9): 940–947. 

26
   VHA National Center for Patient Safety and Office of Mental Health Operations. “Opioid Therapy Guideline 

Adherence Report.” 

https://securereports3.vssc.med.va.gov/Reports/Pages/Report.aspx?ItemPath=%2fMentalHealth%2fMHOpioid%2f

OpioidMatrixReport. Last accessed December 30, 2013. 



VA Office of Inspector General                                                                                        10
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


clinical encounters. For follow-up contact, we counted either in-person (inpatient care,
extended care, or outpatient visits) or telephone encounter. We did not count any
in-person visits to the emergency room or any encounters for reasons that were unlikely
related to follow-up for opioids, such as for compensation and pension, dental, organ
donation, or research.

To take into account specific CPG recommendations for initiation and duration of opioid
therapy, we assessed the extent to which VA screened and monitored opioid patients in
alignment with CPG recommendations separately by new and existing patients on
take-home opioids. We considered a patient as a new patient for FY 2012 if he or she
was initiated on take-home opioids in FY 2012 and did not fill any take-home opioid
prescriptions at VA in FY 2011 (that is, at least 1 year without any take-home opioids
prior to initiation in FY 2012). We designated a patient as an existing patient if he or
she had filled at least 1 take-home opioid prescription at VA in FY 2011.

For new patients who were initiated on take-home opioids in FY 2012, we determined
whether they had received both a:

 (1) UDT within 30 days prior to opioid initiation in FY 2012 and

 (2) follow-up contact within 30 days of initiation.

All new patients were included in the UDT (1) analysis. We excluded new patients from
the follow-up contact (2) analysis if they died within 30 days of opioid initiation or if they
filled their initial prescriptions after September 1, 2012, as they would not have had at
least 30 days of available follow-up in the FY.

For all new opioid patients who had at least 30 days of available follow-up in the FY, we
performed the analyses (both (1) and (2)) for all these patients together and also
analyzed separately by whether they were diagnosed with baseline substance use.

For existing patients, we determined whether they had received both:

  (1) an annual UDT and

 (2) a follow-up contact within 6 months of each filled opioid prescription in FY 2012
     that had at least 6 months available for follow-up contact.

All existing patients were included in the UDT (1) analysis. We counted patients as
having an annual UDT if we found a UDT record in the FY 2012 VA Laboratory SAS
data file. For patients who died in FY 2012 and for whom we did not find a UDT in the
FY, we also checked for a UDT by looking back in FY 2011 for a period that was
sufficient to satisfy the 1-year timeframe from the date of death. For example, for a
patient who died on August 31, 2012, and for whom we did not locate a UDT in
FY 2012, we looked back to the period of September 1–September 30, 2011, for a UDT
to make up for the missing month of September in order to satisfy the 1-year timeframe
(that is, September 1, 2011–August 31, 2012, specifically for this patient).



VA Office of Inspector General                                                                  11
                  VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


We excluded existing patients from the follow-up contact (2) analysis if they did not
have any filled prescriptions that were at least 6 months prior to the end of the follow-up
period (September 30, 2012, or the patient’s date of death if the patient died in
FY 2012).

For all existing opioid patients who had at least 1 filled prescription that was at least
6 months prior to the end of the follow-up period in the FY, we performed the analyses
(both (1) and (2)) for all these patients together and also analyzed separately by chronic
users, as well as by UDT test substance type.

For informational purposes, for existing patients who had received an annual UDT, we
further investigated whether any of their UDTs were conducted while they were on
opioids. If any UDT was conducted within 7 days of the end of the supply days of any
filled opioids, we considered that the UDT was conducted while they were on opioids.
We used 7 days to take into account the presence of opioids in the urine for up to
7 days without any opioid in-take.27

The CPG specifies that chronic (for more than 1 month, p. 3) opioid therapy is
absolutely contraindicated in patients with active (not in remission) substance use
disorders (SUDs) who are not in treatment (p. 25) and should be initiated with caution in
patients receiving treatment for SUDs (p. 24). Active, regular monitoring of illicit
substance use and adherence to the prescribed opioid regimen is strongly
recommended for all patients (p. 56) but is crucial in this high-risk subpopulation.

We designated a patient as with active SUD if we found any of the following ICD-9-CM
diagnostic codes for the patient in FY 2012: 291, 292, 303.00–303.02, 303.90–303.92,
304.00–304.02, 304.10–304.12, 304.20–304.22, 304.30–304.32, 304.40–304.42,
304.50–304.52, 304.60–304.62, 304.70–304.72, 304.80–304.82, 304.90–304.92,
305.00–305.02, 305.20–305.22, 305.30–305.32, 305.40–305.42, 305.50–305.52,
305.60–305.62, 305.70–305.72, 305.80–305.82, 305.90–305.92.

We considered that an active substance use patient had received treatment for
substance use if we found any of the following VA codes for the patient in FY 2012:

     •     Treating specialty codes: 25–27, 37, 39, 85, 88, 1K, 1L, 1M.

     •     Clinic stop codes: 513, 514, 519, 523, 534, 539, 545, 547, 548, 560.

For all patients with active SUD in FY 2012, we determined whether they had received
both:

     (1)    treatment for SUD and

     (2A) a UDT within 90 days of each filled opioid prescription.



27
     http://www.paineducation.vcu.edu/documents/UDTimmunoassay.pdf. Last accessed December 23, 2013.


VA Office of Inspector General                                                                         12
                VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


For UDT analysis (2A) we excluded active substance use patients who did not have any
filled opioid prescriptions that were at least 90 days prior to the end of the follow-up
period (September 30, 2012, or the patient’s date of death if the patient died in
FY 2012).

For the subpopulation of active substance use patients who were on opioids for more
than 90 days in FY 2012, we further determined whether they had received both:

     (1)   treatment for SUD and

     (2B) a UDT for every 90 days on opioids.

Prevalence of Serious Adverse Effects. Increasing use of opioids has been associated
with increasing rates of opioid-related serious adverse effects.28–35 We determined
percentages of opioid patients with evidence of a serious adverse effect that may be
reasonably expected to be related to opioid therapy.36

We classified a patient with opioid overdose if the patient was diagnosed with an opioid
or heroin overdose (ICD-9-CM codes: E850.1, E850.2, E935.1, E935.2, E980.0, 965.0,
E850.0, and E935.0) or had filled any naloxone prescriptions with the following VA
Internal Entry Numbers (IENs): 02802–02805, 03792, 16015, and 16016.37

We considered that a patient experienced sedative overdose if the patient was
diagnosed with any of these ICD-9-CM codes:37 E851, E852, E853.0–E853.2, E853.8,
E853.9, E937.0, E937.8, E938.0, E939.1, E939.2, E939.4, E939.5, E980.1–E980.3,
967.0, 967.8, 968.0, and 969.1–969.5.

We deemed a patient with an acetaminophen overdose if the patient was
diagnosed with any of these ICD-9-CM codes: E850.4, E935.4, and 965.4 or had filled
any acetylcysteine prescriptions with the following IENs: 06109–06112,
14944–14955, 17196, 17544, 17876, 18774, and 19801.



28
   http://www.cdc.gov/about/grand-rounds/archives/2011/pdfs/PHGRRx17feb2011.pdf. Last accessed 

January 27, 2014.

29
   Kuehn, B. M. (2010). “Alarming nonfatal overdose rates found for opioids, sedatives, and tranquilizers.” 

JAMA 303(20): 2020–2021. 

30
   http://oas.samhsa.gov/2k11/DAWN018/DAWN018_HTML.pdf. Last accessed January 27, 2014. 

31
   Clegg, A. and J. B. Young (2011). “Which medications to avoid in people at risk of delirium: a systematic

review.” Age Ageing 40(1): 23–29. 

32
   http://www.uspharmacist.com/content/d/web_exclusive/c/40386/. Last accessed January 27, 2014. 

33
   http://www.cdc.gov/mmwr/preview/mmwrhtml/mm6226a3.htm. Last accessed January 27, 2014. 

34
   VHA Handbook 1160.04, VHA Programs for Veterans With Substance Use Disorders (SUD), March 7, 2012. 

35
   http://www.healthquality.va.gov/sud/sud_full_601f.pdf. Last accessed January 29, 2014. 

36
   http://www.cdc.gov/media/releases/2013/p0220_drug_overdose_deaths.html. Last accessed January 9, 2014. 

37
   VHA National Center for Patient Safety and Office of Mental Health Operations. “Opioid Therapy Guideline 

Adherence Report.” 

https://securereports3.vssc.med.va.gov/Reports/Pages/Report.aspx?ItemPath=%2fMentalHealth%2fMHOpioid%2f

OpioidMatrixReport. Last accessed December 30, 2013. 



VA Office of Inspector General                                                                             13
                 VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


We designated a patient as having been involved with possible and confirmed suicide
attempts if the patient was diagnosed with any of these ICD-9-CM codes:37 E950–E959,
E980.6, E980.8, E981–E984, E988, and V62.84.

We defined a patient as having experienced drug delirium if the patient was diagnosed
with any of these ICD-9-CM codes:37 292.1, 292.2, 292.8, and 292.9.

We identified a patient as having received drug detoxification if we found ICD-9-CM
procedure codes 94.65 or 94.66 for the patient.37

Psychosocial Treatment for Pain, Pain Clinic Service, and Medication
Management/Pharmacy Reconciliation. We determined whether our population of
opioid patients received psychosocial treatment for pain or Pain Clinic service or had
prescription management encounters anytime in FY 2012 or after the patient’s first
opioid prescription.

Psychotherapy, including cognitive behavioral therapy, is recommended to reduce pain
and improve function in chronic pain patients.38 We designated a patient as having
received psychosocial treatment for pain if we found any of the following procedure
codes39 for the patient, which would indicate mental health treatment, behavioral
medicine or behavioral health treatment, psychotherapy, and stress management:

     •	   Current Procedural Terminology (CPT)40 codes: 90801, 90802, 90804–90829,
          90845–90857, 96150–96155, 97532, 98960–98962, 99401–99404, 99411, 99412,
          99510, 4306F.

     •	   ICD-9-CM procedure codes: 94.31, 94.33, 94.37, 94.38, 94.44, 94.49.

     •	   Healthcare Common Procedure Coding System (HCPCS)41 codes: H0002, H0004,
          H0017–H0019, H0023–H0025, H0030, H0031, H0032, H0035, H0046, H2001,
          H2012, H2014, H2017–H2020, H2027, G0177, S9454, T2048.

Thus, our data did not take into account patients who were offered psychosocial
treatment for pain but declined.

Treatment of chronic pain requires care to recover or maintain physical, social, and
occupational function and may include Pain Clinic service. We identified a patient as


38
   Roditi, D. and M. E. Robinson (2011). “The role of psychological interventions in the management of patients 

with chronic pain.” Psychol Res Behav Manag 4: 41–49. 

39
   VHA National Center for Patient Safety and Office of Mental Health Operations. “Opioid Therapy Guideline 

Adherence Report.” 

https://securereports3.vssc.med.va.gov/Reports/Pages/Report.aspx?ItemPath=%2fMentalHealth%2fMHOpioid%2f

OpioidMatrixReport. Last accessed December 30, 2013. 

40
   CPT is a code set that is used to report medical procedures and services. 

41
   HCPCS codes are billing codes used by Medicare and are numbers assigned to every task and service a medical 

practitioner may provide to a Medicare patient. 



VA Office of Inspector General                                                                                 14
               VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


receiving care from a Pain Clinic if we found any encounters for the patient with the VA
Clinic Stop Code of 420.

Opioid patients frequently have complex co-morbid conditions, making them more likely
to be given multiple medications that can interact dangerously with opioid medications.
A review of medications by a pharmacist or other health care professional can prevent
harmful interactions between these medications.            We classified a patient as
receiving medication management/pharmacy reconciliation if we found any39 of these
CPT codes for the patient: 99605, 99606, 99607, 90862, and 1160F or the Clinic Stop
Codes 160 or 176. Our data did not take into account medication reconciliation
performed by primary care providers during clinic visits if it was not recorded as a CPT
code.

Exhibit X3 in Appendix A summarizes data files used in our analysis.

Statistical Analyses
We performed descriptive data analyses for VA as a whole and separately for each
VAMC. We summarized variations among VAMC data results using the 5-number
summaries: minimum, 25th percentile, median, 75th percentile, and maximum.

For this study, we used VAMC to refer to medical centers and CBOCs that were under
the same VA facility (Director) administrative leadership. Based on the VA Site
Tracking (VAST) file, we designated each medical center and each CBOC to 1 of the
141 VAMCs using its station number. As of December 31, 2012, VHA consisted of
141 VAMCs that included 151 medical centers and 827 CBOCs.42

Some patients received take-home opioid prescriptions from more than 1 VAMC during
FY 2012. For opioid prevalence calculations by VAMC, these patients were counted for
each VAMC where they received any filled opioid prescriptions. To perform data
analyses other than opioid prevalence by VAMC, we designated a patient to the VAMC
that issued the most (filled) take-home opioid prescriptions to the patient in FY 2012. If
more than one VAMC met this criterion, we assigned the patient to the VAMC (among
those VAMCs tied for most filled prescriptions) that issued the last (filled) opioid
prescription in the FY.

We performed data analyses using SAS statistical software (SAS Institute, Inc.,
Cary, NC), version 9.3 (TS1M2).

The study was performed in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




42
 http://www.va.gov/vetdata/docs/Quickfacts/Homepage_slideshow_03_31_13.pdf. Last accessed
December 30, 2013.


VA Office of Inspector General                                                                   15
                  VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy



                                   Results and Conclusions 

VA dispensed take-home opioids to 453,616 patients during FY 2012 for a total of close
to 1.72 million filled opioid prescriptions (Exhibit 1). We excluded from our analyses a
total of 11,072 patients and 38,045 prescriptions (including the 111 duplicate
prescription records). This accounted for 2.4 percent of the entire FY 2012 patients
dispensed with take-home opioids. We excluded the 330 patients who were classified
as DoD patients. Most (97 percent) of the excluded patients were those who had
received hospice or palliative care in FY 2012 or within 1 year prior to their first
take-home opioid prescription in FY 2012. Thus, our study population consists of
442,544 (non-hospice/palliative care) patients who collectively received approximately
1.68 million take-home opioid prescriptions in FY 2012. These patients received care
from at least 1 of the 140 VAMCs since Manila VAMC did not have any eligible patients
for the study.

     Exhibit 1. Exclusions of VA Patients Dispensed with Take-Home Opioids
                                   in FY 2012
                                                                               Patients   Prescriptions
              All patients with take-home opioids                              453,616     1,718,006
              Exclusions (total)                                               11,072        38,045
                 Duplicate prescription records                                   0           111
                 Patients of Department of Defense                               330          752
                 Patients with hospice or palliative care1                     10,742        37,182
              Study population                                                 442,544     1,679,961
              1
                  One year prior to first opioid prescription or in FY 2012.



1. Prevalence of VA Patients Dispensed Take-Home Opioids
The 442,544 opioid patients accounted for 7.7 percent of all VA (non-hospice/palliative
care) patients who had at least 1 outpatient encounter at VA in FY 2012.
Exhibit 2 indicates that the prevalence of patients dispensed with take-home opioids by
individual VAMCs ranged from 0.26 percent to 21.8 percent, with the middle 50 percent
of the VAMCs dispensing opioids to 3.6–10.1 percent of their outpatients.




VA Office of Inspector General                                                                            16
                      VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


   Exhibit 2. VA Medical Center (VAMC1) Prevalence of Patients Dispensed with 

                          Take-Home Opioids in FY 2012 





    1
        Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.



2. Baseline Characteristics of VA Take-Home Opioid Patients
Exhibit 3 shows the baseline (at the first take-home opioid prescription in FY 2012)
characteristics of the study population combined and separately by whether days on
take-home opioids in FY 2012 were 90 or less (non-chronic users) or more than
90 (chronic users). About one third (33.9 percent) of the patients were chronic users.

A majority (92.5 percent) of the patients were male, which mirrored the gender
composition of VA patients. The average and the median patient age at their first opioid
prescription in FY 2012 were 59.4 and 61, respectively (see Exhibit 4 for more details
on age distributions).




VA Office of Inspector General                                                                                                                       17
                   VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


 Exhibit 3. Baseline Characteristics of VA Take-Home Opioid Patients in FY 2012
                                                                            All patients with     90 days or less     More than 90 days
                                                                               take-home            on opioids           on opioids
                                                                                 opioids        (non-chronic users)    (chronic users)
                                                                                442,544          292,693 66.1%        149,851 33.9%
                                                                               #          %         #          %         #         %
Male                                                                       409,324      92.5     269,322     92.0     140,002     93.4
Age at first opioid prescription in FY 2012
   Mean (standard deviation)                                                 59.4      (0.02)     59.4      (0.03)      59.4    (0.03)
   Median                                                                    61.0                 61.0                  60.0
OEF/OIF at first opioid prescription in FY 2012                             27,752       6.3     21,263       7.3      6,489      4.3
Pain diagnosis within 1 year prior to first opioid prescription            388,745      87.8    253,010      86.4     135,735    90.6
   Primary pain site (of non-cancer origin)                                386,082      87.2    251,565      85.9     134,517    89.8
   Pain of the nervous system and sense organs                              46,541      10.5     26,622       9.1      19,919    13.3
Mental health diagnosis within 1 year prior to first opioid prescription   284,161      64.2    181,298      61.9     102,863    68.6
   PTSD                                                                     88,521      20.0     57,189      19.5      31,332    20.9
   Substance use                                                           65,446       14.8     42,852      14.6      22,594    15.1
Pain or mental health diagnoses within 1 year prior to first opioid
prescription                                                               414,462      93.7    271,538      92.8     142,924    95.4
Pain and mental health diagnoses within 1 year prior to first opioid
prescription                                                               258,444      58.4    162,770      55.6     95,674     63.8
   Pain and PTSD                                                           81,888       18.5    52,389       17.9     29,499     19.7
   Pain and substance use                                                  60,384       13.6    39,025       13.3     21,359     14.3
Primary pain site and mental health diagnoses within 1 year prior to
first opioid prescription                                                  256,692      58.0    161,848      55.3     94,844     63.3
   Primary pain site and PTSD                                              81,384       18.4    52,142       17.8     29,242     19.5
   Primary pain site and substance use                                     60,003       13.6    38,825       13.3     21,178     14.1
Pain of the nervous system and sense organs and mental health
diagnoses within 1 year prior to first opioid prescription                 36,789       8.3      20,737      7.1      16,052     10.7
   Pain of the nervous system and sense organs and PTSD                    13,261       3.0      7,633       2.6      5,628      3.8
   Pain of the nervous system and sense organs and substance use           11,313       2.6      6,566       2.2      4,747      3.2
Died in FY 2012                                                             7,426       1.7       5,616      1.9       1,810      1.2




Exhibit 4. Age (At First Opioid Prescription) Distribution of VA Take-Home Opioid 

                                Patients in FY 2012 





Approximately 1 in every 16 patients (6.3 percent) had served in OEF/OIF. Nearly
88 percent of the patients were diagnosed with pain within 1 year prior to or on their first
day dispensed with take-home opioids in FY 2012. We observed that 87 percent of the
opioid patients were diagnosed with primary pain site of non-cancer origin that could
result in pain serious enough to warrant an opioid medication. Nearly all (9.9 out of
10.5 percent) patients diagnosed with pain of the nervous system and sense organs
were also diagnosed with primary pain site. As expected, both primary pain site and


VA Office of Inspector General                                                                                                     18
                 VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


pain of the nervous system and sense organs were more prevalent among chronic
users.

Exhibit 5 gives detailed information on pain diagnoses for the study population. It
shows that a higher percentage of chronic users was diagnosed with chronic pain
(8.0 percent versus 5.7 percent) and chronic pain syndrome (5.8 percent versus
3.2 percent)—a complex syndrome that involves multiple factors.

     Exhibit 5. Percent of Patients Diagnosed with Pain within 1 Year Prior to First 

                      Take-Home Opioid Prescription in FY 2012 

                                       All patients with      90 days or less on opioids   More than 90 days on
                                     take-home opioids           (non-chronic users)       opioids (chronic users)
                                           442,544                    292,693                     149,851
 Pain                                        87.8                        86.4                        90.6
   Primary pain site                         87.2                        85.9                        89.8
      Back pain                              54.6                        50.8                        62.0
      Arthritis                              52.9                        52.2                        54.3
      Musculoskeletal pain                   27.5                       27.8                         27.0
      Neuropathy                             13.8                        13.3                        14.8
      Visceral pain                          13.1                        13.9                        11.4
      Headaches                               9.9                        10.0                         9.9
      Fractures                               5.7                         6.1                         4.9
      Wound injury                            4.0                         4.0                         3.9
      Other pain                              2.9                         2.8                         3.0
      Reproductive pain                      0.39                        0.46                        0.25
      Generalized pain                       0.38                        0.36                        0.40
   Pain of the nervous system
   and sense organs                         10.5                         9.1                        13.3
      Chronic pain                           6.5                         5.7                         8.0
      Chronic pain syndrome                  4.1                         3.2                         5.8
      Acute pain                            0.83                        0.90                        0.68
      Neoplasm-related pain                 0.13                        0.14                        0.11


Exhibit 6 gives detailed information on mental health diagnoses. It indicates that more
than half (64.2 percent) of the opioid patients had been diagnosed with mental health
issues at the first take-home opioid prescription. Approximately one third (35 percent)
of the patients had been diagnosed with mood disorders, 1 of 5 with PTSD, and 1 of
7 (14.8 percent) with substance use. We observed that higher percentages of chronic
users were consistently diagnosed with each category of the mental health issues
except for alcohol-related disorders, which was 10.0 percent for chronic users but
10.7 percent for their counterparts of non-chronic users. While almost 15 percent of the
entire study population had been diagnosed with substance use, 4 percent43 of the
population had been diagnosed with both alcohol and drug related disorders.




43
  This was calculated by adding alcohol-related disorders (10.4 percent) plus drug-related disorders (8.4 percent)
and subtracting substance use (14.8 percent).


VA Office of Inspector General                                                                                       19
                 VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


Exhibit 6. Percent of Patients Diagnosed with Mental Health Issues within 1 Year 

             Prior to First Take-Home Opioid Prescription in FY 2012 

                                        All patients with   90 days or less on opioids   More than 90 days on
                                      take-home opioids        (non-chronic users)       opioids (chronic users)
                                            442,544                 292,693                     149,851
Mental health                                 64.2                     61.9                        68.6
 Adjustment disorders                          5.0                      4.9                         5.1
 Anxiety disorders excluding PTSD             14.0                     13.2                        15.6
 PTSD                                         20.0                     19.5                        20.9
 Mood disorders                               35.0                     33.3                        38.5
   Excluding major depression                 29.9                     28.4                        32.6
   Major depression                           11.3                     10.8                        12.2
 Personality disorders                         1.9                      1.9                         2.0
 Psychotic disorders                           3.1                      3.1                         3.2
 Psychological pain                            1.1                     0.87                         1.6
 Substance use                                14.8                     14.6                        15.1
   Alcohol-related disorders                  10.4                     10.7                        10.0
   Drug-related disorders                      8.4                      8.2                         8.8


Nearly 94 percent of the study population had been diagnosed with pain or mental
health issues and 58.4 percent of patients with both (Exhibit 3). The percentages of
patients being diagnosed with both pain and mental health issues were 8 points higher
for chronic users than their counterparts of non-chronic users.

3. VA Dispensing Patterns of Take-Home Opioids
Approximately half (52.2 percent) of the study population were new patients in the
sense that they were initiated on take-home opioid therapy in FY 2012 after not being
on take-home opioids for at least more than 1 year (Exhibit 7). Seven out of
10 (69.1 percent) non-chronic users were new patients in contrast to 1 in
5 (19.1 percent) of their counterparts of chronic users. Nearly 41 percent of the patients
had been dispensed with 1 prescription, which was composed entirely of the
61.4 percent of non-chronic users because none of the opioids were allowed to be
prescribed for more than 90 days in 1 prescription. Patients with 6 or more
prescriptions were mainly chronic users, which amounted to 69.3 percent of that group.
Almost all (98.4 percent) patients received their prescriptions from a single VAMC, and
three quarters of the patient population had all their (filled) prescriptions issued from a
single prescriber.




VA Office of Inspector General                                                                                20
                        VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


               Exhibit 7. VA Dispensing Patterns of Take-Home Opioids in FY 2012
                                                                 All patients with      90 days or less on opioids          More than 90 days on
                                                               take-home opioids           (non-chronic users)             opioids (chronic users)
                                                                     442,544              292,693         66.1%          149,851         33.9%
                                                                   #           %               #            %                #             %
No take-home opioids in FY 2011 (new patients)                 230,975        52.2        202,282          69.1           28,693          19.1
Only one opioid prescription per patient                       179,677        40.6        179,677          61.4              0            0.00
Six or more opioid prescriptions per patient                   105,145        23.8          1,289          0.44          103,856          69.3
Only one type of opioids                                       420,632        95.0        284,253          97.1          136,379          91.0
                                            1
All opioid prescriptions from same VAMC                        435,327        98.4        290,029          99.1          145,298          97.0
All opioid prescriptions from same prescriber                  332,856        75.2        252,050          86.1           80,806          53.9
Morphine equivalent 200 mg/day or more                           5,155         1.2          1,278          0.44            3,877           2.6
Long-acting opioid products                                     27,920         6.3          9,186           3.1           18,734          12.5
             2
Early refills (of opioids at least 7 days early)               101,805        23.0         19,829           6.8           81,976          54.7
  7–10 days early                                               39,742         9.0          8,019           2.7           31,723          21.2
  11–14 days early                                              24,815         5.6          4,725           1.6           20,090          13.4
  More than 14 days early                                       37,248         8.4          7,085           2.4           30,163          20.1
  3–5 early refills                                             16,750         3.8           196           0.07           16,554          11.0
  More than 5 early refills                                      1,488        0.34            8            0.00            1,480           1.0
             2
Early refills (of opioids at least 11 days early)               62,063        14.0         11,810           4.0           50,253          33.5
  3–5 early refills                                              4,255         1.0            73           0.02            4,182           2.8
  More than 5 early refills                                       215         0.05            6            0.00             209           0.14
1
    Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.
2
    Prescription of same opioid medication (generic name, route of administration, and dosage form) that was dispensed prior to finishing previous
    supply of the opioid.


Most (95.0 percent) of the patients were dispensed with a single type of opioid. More
than 6 percent of the patients received at least 1 long-acting opioid product, with the
percentage of chronic users being 4 times that of non-chronic users. Opioid dosages
with a morphine equivalent at least 200 mg/day were dispensed to 1.2 percent of the
study population, which accounted for 2.6 percent of chronic users and 0.44 percent of
non-chronic users.

Refills of opioids at least 7 days early occurred in 23.0 percent of the population, with
refills of at least 11 days early in 14.0 percent of the population. As expected, early
refills occurred (at least 8 times) more likely and more frequently among chronic users
than non-chronic users.

Exhibit 8 indicates that take-home benzodiazepines were dispensed to 7.4 percent of
the study population, with the percentage of chronic opioid users being 1.6 times that of
non-chronic users. We determined that 71 percent of the opioid patients who received
take-home benzodiazepines were dispensed benzodiazepines concurrently with
opioids. The percentage of chronic opioid users with concurrent benzodiazepines was
92.6, and the percentage of non-chronic users was 53.6.




VA Office of Inspector General                                                                                                                       21
                        VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


           Exhibit 8. VA Pattern of Dispensing Take-Home Opioids with Concurrent

                       Benzodiazepines and Acetaminophen in FY 2012

                                                             All patients with  90 days or less on opioids                    More than 90 days on
                                                           take-home opioids       (non-chronic users)                        opioids (chronic users)
                                                                  442,544          292,693       66.1%                         149,851       33.9%
                                                                 #          %          #            %                              #            %
Take-home benzodiazepine prescription                        32,833        7.4     18,198          6.2                         14,635          9.8
                                                       1
   Concurrent benzodiazepine and opioid prescriptions         23,314       71.0     9,763         53.6                         13,551          92.6
Take-home acetaminophen prescription                         408,347       92.3    278,273        95.1                         130,074         86.8
                                       2
   Average daily dose at least 4 grams                         8,028        2.0      4,271         1.5                          3,757           2.9
                                        2
   At least 1 day dose 4 grams or more                       113,275       27.7     54,063        19.4                          59,212         45.5
                                                         2
   At least 1 day dose 4 grams or more while on opioids       93,598       22.9     37,042        13.3                          56,556         43.5
                                          2
   Average daily dose exceeding 4 grams                        6,724        1.6      3,116         1.1                          3,608           2.8
                                          2
   At least 1 day dose exceeding 4 grams                      70,498       17.3     34,076        12.2                         36,422          28.0
                                                     2
   At least 1 day exceeding 4 grams while on opioids          55,929       13.7     21,809         7.8                         34,120          26.2
1
  Percentages based on patients with take-home benzodiazepine prescriptions.
2
  Percentages based on patients with take-home acetaminophen prescriptions.


Acetaminophen was given to 92.3 percent of the study patients. We found that
2.0 percent of them were given an average daily dose of 4 g/day or more. We observed
that the percentage points of chronic users given either at least 1 day of
4 grams or more of acetaminophen or at least 1 day of 4 grams or more concurrently
with opioids were more than double those of non-chronic users.

In terms of dose exceeding 4 grams (dosages exclude exactly 4 grams) per day, we
determined that 1.6 percent of the study patients were given an average daily dose that
exceeded 4 grams. Percentages were reduced over 10 points from 27.7 percent and
22.9 percent to 17.3 percent and 13.7 percent for at least 1 day that exceeded 4 grams
and at least 1 day that exceeded 4 grams concurrently with opioids, respectively.

The Clinical Practice Guideline recommends a bowel regimen for all opioid patients
(pp. 37 and 67) to manage opioid-related constipation. Exhibit 9 reveals that
27.9 percent of the patients were dispensed with a laxative in FY 2012 and that
23.5 percent of the patients were given a laxative on or after the date of their first opioid
prescription. The practice of dispensing a laxative to opioid patients varied among
140 VAMCs from 17.6 percent to 61.6 percent for the entire FY 2012 and from
12.7 percent to 56.0 percent at or after patients’ first opioid prescription.

      Exhibit 9. Variations of VA Medical Center (VAMC1) Percentages Dispensing a 

                    Laxative to Take-Home Opioid Patients in FY 2012 

                                                                               Variations in VAMC percentages
                                                                                25th                    75th                                VA average
                                                              Minimum         percentile    Median   percentile             Maximum
Prescribed a laxative any time in FY 2012                       17.6            24.3         30.0       35.5                  61.6               27.9
Prescribed a laxative on or after the date of first
opioid dispensing in FY 2012                                     12.7            20.1           25.2          29.0             56.0              23.5
1
    Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.




VA Office of Inspector General                                                                                                                          22
                        VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


4. VA Patterns of Screening and Monitoring Opioid Patients
New Patients on Take-Home Opioids. The Clinical Practice Guideline calls for a urine
drug test (UDT) prior to initiating opioid therapy (p. 37) and a follow-up visit at least
every 2–4 weeks after any change in medication regimen (p. 82). We determined that
only 6.4 percent of the new patients (that is, patients who were not given any take-home
opioids in FY 2011, which is at least 1 year before initiating their take-home opioid
therapy) received both a UDT prior to and a follow-up within 30 days of initiating opioid
therapy in FY 2012 (Exhibit 10).

     Exhibit 10. Variations of VA Medical Center (VAMC1) Percentages Conducting a 

       Urine Drug Test Prior to and/or a Follow-Up within 30 Days of Initial Opioid 

              Prescription, New Patients on Take-Home Opioids in FY 2012 

                                                      Number of                      Variations in VAMC percentages
                                                                                                                                                   VA
                                                      VA eligible                      25th                  75th
                                                                                                                                                 average
                                                       patients        Minimum       percentile Median percentile              Maximum
Conducted both a urine drug test prior to
and a follow-up within 30 days of
initiating opioid therapy                               209,843            1.1           3.9           6.1         10.2           32.2             6.4
Conducted a urine drug test within
30 days prior to initiating opioid therapy              230,975           1.6            4.6           7.3         11.9           32.2            7.6
                                         2
  Patients with substance use disorder                   33,564           4.4           13.7          19.3         26.3           57.1            20.2
  Patients without substance use disorder               197,411           0.00           2.9           5.0          8.5           28.6            5.4
Received a follow-up within 30 days of
initiating opioid therapy                               209,843           60.4          71.1          75.6         80.8           94.9            74.0
Received a follow-up in-person visit
within 30 days of initiating opioid therapy             209,843           53.7          68.0          72.7         77.5           94.9            71.2
1
    Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.
2
    Diagnosed within 1 year of opioid initiation.


The very low (6.4 percent) rate of screening and monitoring patients at opioid initiation
almost exclusively resulted from the very low rate of a UDT. We found that within
30 days of initiating opioid therapy, nearly three quarters of the patients received a
follow-up, including 2.8 percent of the patients who received a follow-up call encounter
alone (without any in-person visits). However, VA conducted a UDT for only 7.6 percent
of new opioid patients within 30 days prior to initiating the therapy. Even for the
high-risk group of patients who were diagnosed with baseline substance use disorder
(SUD), a UDT was performed for only one out of five of them. A UDT was conducted
for 1 out of 20 patients without SUD.

Exhibit 11a shows UDT test rates for new patients prior to initial prescription by days on
opioids. The rates increased from 6.8 percent for those who were on non-chronic opioid
therapy (30 days or less) to 9.1 percent for those who were on chronic opioid therapy
(more than 30 days) to 11.1 percent for chronic users (more than 90 days).

For UDTs conducted within 60 or 90 days of initiating opioid therapy, rates increased to
10.3 percent and 12.5 percent (Exhibit 11b), respectively.




VA Office of Inspector General                                                                                                                           23
                          VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


    Exhibit 11a. Distribution of VA Medical Center (VAMC1) Percentages Conducting 

       a Urine Drug Test on Patient within 30 Days Prior to Initial Prescription in 

             FY 2012, New Take-Home Opioid Patients, by Days on Opioids 

                                                                                Variations in VAMC percentages
                                                                                25th                     75th                                VA average
                                                              Minimum         percentile     Median    percentile             Maximum
30 days or less on opioids                                      0.88             4.3           6.2        9.5                   36.6               6.8
More than 30 days on opioids                                     1.0             5.4           9.3       15.0                   36.8               9.1
More than 90 days on opioids                                    0.00             6.5          11.6       19.0                  100.0              11.1
1
    Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.




    Exhibit 11b. Variations of VA Medical Center (VAMC1) Percentages Conducting a 

        Urine Drug Test within 60 or 90 Days Prior to Initial Opioid Prescription, 

                    New Patients on Take-Home Opioids in FY 2012 

                                                          Number of                      Variations in VAMC percentages
                                                                                                                                                    VA
                                                          VA eligible                     25th                   75th
                                                                                                                                                  average
                                                           patients       Minimum       percentile    Median   percentile          Maximum
Conducted a urine drug test within 60 days
prior to initiating opioid therapy                          230,975          2.1           6.7           9.9           15.8           38.3          10.3
                                      2
 Patients with substance use disorder                        33,564           5.8          19.4          25.8          34.0           63.6          26.7
 Patients without substance use disorder                    197,411          0.00          4.2           6.8           11.2           33.6           7.5
Conducted a urine drug test within 90 days
prior to initiating opioid therapy                          230,975           2.6           8.3          12.1          18.3           45.5          12.5
                                      2
 Patients with substance use disorder                       33,564            9.1          23.7          30.7          40.3           71.4          31.8
 Patients without substance use disorder                    197,411          0.00          5.5           8.0           13.8           44.7           9.2
1
    Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.
2
    Diagnosed within 1 year of opioid initiation.


We observed broad variation among 140 VAMCs’ practice on this measure, ranging
from 1.1 percent to 32.2 percent, with the middle 50 percent of the VAMCs from
3.9 percent to 10.2 percent (Exhibits 10 and 12). See Exhibits 13–16 for more details.

Exhibit 12. Distribution of VA Medical Center (VAMC1) Percentages Conducting a 

Urine Drug Test Prior to and a Follow-Up within 30 Days of Initial Prescription in 

                   FY 2012, New Patients on Take-Home Opioids 





        1
            Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.




VA Office of Inspector General                                                                                                                           24
                      VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


Exhibit 13. Distribution of VA Medical Center (VAMC1) Percentages Conducting a 

  Follow-Up within 30 Days of Initiating Take-Home Opioid Therapy in FY 2012, 

                       New Patients on Take-Home Opioids 





    1
        Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


Exhibit 14. Distribution of VA Medical Center (VAMC1) Percentages Conducting a 

 Urine Drug Test within 30 Days Prior to Initiating Take-Home Opioid Therapy in 

                   FY 2012, New Patients on Take-Home Opioids 





    1
        Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.




VA Office of Inspector General                                                                                                                       25
                      VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


Exhibit 15. Distribution of VA Medical Center (VAMC1) Percentages Conducting a 

 Urine Drug Test on Patient within 30 Days Prior to Initiating Take-Home Opioid 

           Therapy in FY 2012, New Take-Home Opioid Patients with a 

                             Substance Use Disorder 





    1
        Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


Exhibit 16. Distribution of VA Medical Center (VAMC1) Percentages Conducting a 

Urine Drug Test on Patient within 30 Days Prior to Initial Prescription in FY 2012, 

       New Take-Home Opioid Patients without a Substance Use Disorder 





    1
        Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


Existing Patients on Take-Home Opioids. The Clinical Practice Guideline recommends
a UDT randomly at follow-up visits to confirm the appropriate use of opioids (p. 37) and
a follow-up visit at least once every 1–6 months for the duration of therapy (p. 82). We


VA Office of Inspector General                                                                                                                       26
                          VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


determined that only 37.0 percent of the existing opioid patients received both an
annual UDT and a follow-up within 6 months of each filled opioid prescription, varying
extensively from 4.2 percent to 91.0 percent among VAMCs (Exhibits 17 and 18).

 Exhibit 17. Variations of VA Medical Center (VAMC1) Percentages Conducting a 

Follow-Up within 6 Months of Each Opioid Prescription in FY 2012 and an Annual 

  Urine Drug Test, Existing Patients on Take-Home Opioids (175,403 Patients), 

                             by Test Substance Type 

                                                                  Variations in VAMC percentages
                                                                      25th              75th            VA average
                                                           Minimum percentile Median percentile Maximum
Follow-up within 6-months and any annual urine drug test      4.2     24.9       37.6   50.3      91.0     37.0
Follow-up within 6-months and test for morphine or heroin    0.85     20.3      32.8    47.8      86.8     33.2
Follow-up within 6-months and test for non-morphine opioid
  compound                                                   0.51     8.8       21.7    39.4      84.1     20.7
Follow-up within 6-months and test for other non-opioid
  abusable substance                                          4.2     24.7      36.6    50.2      90.8     36.8
1
    Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


Exhibit 18. Distribution of VA Medical Center (VAMC1) Percentages Conducting a 

Follow-Up within 6 Months of Each Opioid Prescription in FY 2012 and an Annual 

            Urine Drug Test, Existing Patients on Take-Home Opioids 





        1
            Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


The low rate of monitoring opioid patients using both an annual UDT and
6-month follow-up resulted mainly from the low rate of annual UDT (Exhibit 19). We
observed that 93.2 percent (including 1.6 percent of the patients who had only follow-up
calls) of existing patients had a follow-up within 6 months of each filled opioid
prescription, ranging from 83.8 percent to 100.0 percent among 140 VAMCs.
Exhibit 19 gives the distribution of VAMC rates on conducting a follow-up within
6 months of each filled opioid prescription in FY 2012.




VA Office of Inspector General                                                                                                                           27
                          VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


Exhibit 19. Distribution of VA Medical Center (VAMC1) Percentages Conducting a 

        Follow-Up within 6 Months of Each Opioid Prescription in FY 2012, 

                     Existing Patients on Take-Home Opioids 





        1
            Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


In contrast, we found that VA conducted an annual UDT for only 37.9 percent of existing
opioid patients (Exhibits 20 and 21), which accounted for 40.9 percent of the chronic
opioid users and 33.7 percent of the non-chronic users. We observed wide variation of
VAMCs practice on an annual UDT, ranging from 4.4 percent to 87.6 percent.

    Exhibit 20. Variations of VA Medical Center (VAMC1) Percentages Conducting an 

       Annual Urine Drug Test, FY 2012 Existing Patients on Take-Home Opioids, 

                      by Test Substance Type and Days on Opioids 

                                                                                     Variations in VAMC percentages
                                                                                                                                                   VA
                                                                                      25th                   75th
                                                                                                                                                 average
                                                                     Minimum        percentile    Median   percentile           Maximum
All patients (211,569)
Any urine drug tests                                                    4.4            25.7          39.5          51.7            87.6            37.9
  Test for morphine or heroin                                          0.95            21.2          33.4          48.0            87.1            33.8
  Test for non-morphine opioid compound                                0.45            8.2           22.4          40.1            82.8            21.1
  Test for other non-opioid abusable substance                          4.4            25.3          38.4          51.3            87.6            37.7
Patients on opioids more than 90 days (121,158)
Any urine drug tests                                                    3.4            27.0          41.1          57.9            93.1            40.9
  Test for morphine or heroin                                          0.80            22.5          36.7          55.7            92.0            37.0
  Test for non-morphine opioid compound                                0.00             9.2          23.3          43.8            90.3            23.9
  Test for other non-opioid abusable substance                          2.5            27.0          40.6          57.0            93.1            40.7
Patients on opioids 90 days or less (90,411)
Any urine drug tests                                                    3.6            23.7          34.1          44.7            81.9            33.7
  Test for morphine or heroin                                          0.75            18.3          30.7          42.6            81.9            29.5
  Test for non-morphine opioid compound                                0.35            6.5           20.5          35.4            78.6            17.4
  Test for other non-opioid abusable substance                          3.6            23.6          33.9          44.2            81.9            33.6
1
    Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.




VA Office of Inspector General                                                                                                                           28
                          VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


    Exhibit 21. Distribution of VA Medical Center (VAMC1) Percentages Conducting
     an Annual Urine Drug Test, FY 2012 Existing Patients on Take-Home Opioids




        1
            Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


Although most annual UDTs included all three test substance types, the test for
non-morphine opioid compound was least performed when compared with the test for
morphine or heroin and the test for other non-opioid abusable substance. We found
that approximately 60 percent of the UDTs were conducted while patients were on
opioids, regardless of test substance type (Exhibit 22). Exhibits 21 and 23–25 give
more details on VAMC patterns of conducting an annual UDT.

    Exhibit 22. Variations of VA Medical Center (VAMC1) Percentages Conducting an 

       Annual Urine Drug Test, FY 2012 Existing Take-Home Opioid Patients Who 

     Received an Annual Urine Drug Test While on Opioids, by Test Substance Type 

                                              Number of                              Variations in VAMC percentages
                                                                                                                                                    VA
                                              VA eligible                              25th                  75th
                                                                                                                                                  average
                                               patients                      Minimum percentile    Median percentile                Maximum
Any urine drug tests                           80,095                         19.2     51.5        59.0      68.4                    88.9           59.6
 Test for morphine or heroin                   71,480                          4.5     47.4         58.2     67.6                    88.6           60.1
 Test for non-morphine opioid compound         44,612                         10.0     47.0        57.4      70.2                    90.4           61.7
 Test for other non-opioid abusable substance  79,739                         18.9     51.7         59.0     67.9                    88.8           59.5
1
    Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.




VA Office of Inspector General                                                                                                                           29
                      VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


 Exhibit 23. Distribution of VA Medical Center (VAMC1) Percentages Conducting
  an Annual Urine Drug Test, FY 2012 Existing Take-Home Opioid Patients Who
                        Were on Opioids More than 90 Days




    1
        Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


 Exhibit 24. Distribution of VA Medical Center (VAMC1) Percentages Conducting
  an Annual Urine Drug Test, FY 2012 Existing Take-Home Opioid Patients Who
                         Were on Opioids 90 Days or Less




    1
        Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.




VA Office of Inspector General                                                                                                                       30
                      VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


 Exhibit 25. Distribution of VA Medical Center (VAMC1) Percentages Conducting
  an Annual Urine Drug Test, FY 2012 Existing Take-Home Opioid Patients Who
              Received an Annual Urine Drug Test While on Opioids




    1
        Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


Active (Not in Remission) Substance Use Patients. The Clinical Practice Guideline
recommends that active (not in remission) substance use patients receive SUD
treatment concurrently with urine drug testing as an adjunctive tool at regular intervals
(p. 90). Among the study population, 13.1 percent were diagnosed with active
substance use (Exhibit 26). For the active substance use patients who filled 1 or more
take-home opioid prescriptions at least 90 days prior to the end of follow-up, we
determined that only 10.5 percent received both treatment for substance use and a UDT
within 90 days of each filled opioid prescription (Exhibit 27). The percentages of
VAMCs treating active substance use patients and performing at least 1 UDT within
90 days of each filled opioid prescription varied from 0.00 to 44.8.




VA Office of Inspector General                                                                                                                       31
                          VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


Exhibit 26. Distribution of VA Medical Center (VAMC1) Percentages of Take-Home 

  Opioid Patients Who Were Diagnosed with Active Substance Use in FY 2012 





        1
            Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


The low rate for treating substance use and conducting UDTs regularly for active
substance use patients resulted from both low rates of treatment and UDT. We found
that 31.2 percent of the active substance use patients received an SUD treatment in
FY 2012, with treatment percentages ranging from 8.3 to 59.5 among 140 VAMCs
(Exhibits 27 and 28); 19.2 percent of the patients received at least 1 UDT within 90 days
of every (filled) prescription of take-home opioids (Exhibits 27 and 29), with the test
percentages varying from 2.2 to 52.3 among VAMCs.

        Exhibit 27. Variations of VA Medical Center (VAMC1) Percentages Treating 

       Patients for Substance Use and Conducting at Least 1 Urine Drug Test within 

                   90 Days of Each Filled Opioid Prescription in FY 2012, 

                              Active Substance Use Patients 

                                                       Number of                       Variations in VAMC percentages
                                                                                                                                                   VA
                                                       VA eligible                       25th                  75th
                                                                                                                                                 average
                                                        patients         Minimum       percentile Median percentile             Maximum
Treating active substance use patients
and conducting a urine drug test within
90 days of each filled opioid prescription                47,736           0.00           6.2          9.6           13.7          44.8            10.5
Treating active substance use patients                    57,966            8.3           24.9         30.5          37.0          59.5            31.2
Conducting a urine drug test within
90 days of each filled opioid prescription                47,736            2.2           13.2         18.0          24.1          52.3            19.2
1
    Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.




VA Office of Inspector General                                                                                                                            32
                      VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


   Exhibit 28. Distribution of VA Medical Center (VAMC1) Percentages Treating 

     Patients for Substance Use in FY 2012, Active Substance Use Patients 





    1
        Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


Exhibit 29. Distribution of VA Medical Center (VAMC1) Percentages Conducting at 

  Least 1 Urine Drug Test within 90 Days of Each Filled Opioid Prescription in 

                      FY 2012, Active Substance Use Patients 





    1
        Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


Even for the subpopulation of 19,724 active substance use patients who were on
opioids for more than 90 days in FY 2012, we determined that only 18.8 percent of them
received both substance use treatment and regular 90-day UDTs, and the percentages
of VAMCs both treating active substance use and performing at least 1 UDT for every
90 days of opioids varied from 0.00 to 82.7 (Exhibit 30). In particular, 55.2 percent of
this subpopulation of active substance use patients received at least 1 UDT per 90 days


VA Office of Inspector General                                                                                                                       33
                          VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


of take-home opioids (Exhibits 30 and 31), with the VAMCs’ test percentages varying
from 13.3 to 100.0. The percent of this subpopulation receiving an SUD treatment was
26.5, with treatment percentages ranging from 5.4 to 85.3 among 140 VAMCs
(Exhibit 30).

      Exhibit 30. Variations of VA Medical Center (VAMC1) Percentages Treating
    Patients for Substance Use and Conducting at Least 1 Urine Drug Test for Every
     90 Days on Opioids in FY 2012, Active Substance Use Patients Who Were on
          Take-Home Opioids More than 90 Days in FY 2012 (19,724 Patients)
                                                                                Variations in VAMC percentages
                                                                                25th                     75th                                VA average
                                                              Minimum         percentile     Median    percentile            Maximum
Treating active substance use patients and
conducting a urine drug test for every 90 days
on opioids                                                       0.00            12.5           17.7           22.8             82.7              18.8
Treating active substance use patients                            5.4            18.4           25.5           31.1             85.3              26.5
Conducting a urine drug test for every 90 days
on opioids                                                       13.3            42.6           57.1           69.4            100.0              55.2
1
    Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


Exhibit 31. Distribution of VA Medical Center (VAMC1) Percentages Conducting a 

 Urine Drug Test for Every 90 Days on Opioids, Active Substance Use Patients 

         Who Were on Take-Home Opioids More than 90 Days in FY 2012 





        1
            Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.




5. VA Patterns of Providing Psychosocial Treatment for Pain, Pain
Clinic Service, and Medication Management/Pharmacy Reconciliation
for Take-Home Opioid Patients
Exhibit 32 gives summaries, and Exhibits 33–35 show the distributions of VAMCs
providing psychosocial treatment for pain, Pain Clinic service, and medication
management/pharmacy reconciliation for the study population.              In FY 2012,
45.2 percent of the opioid patients received at least 1 psychosocial treatment for pain,


VA Office of Inspector General                                                                                                                           34
                          VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


and 35.1 percent received this treatment after their first opioid prescription. Although up
to 93.7 percent of the patients were provided psychosocial treatments for pain by
VAMCs, three quarters of the VAMCs gave this treatment to 26.9–52.1 percent of their
patients in FY 2012.

      Exhibit 32. Variations of VA Medical Center (VAMC1) Percentages Providing 

         Psychosocial Treatment for Pain, Pain Clinic Service, and Medication 

    Management/Pharmacy Reconciliation for Take-Home Opioid Patients in FY 2012 

                                                                                     Variations in VAMC percentages
                                                                                      25th                   75th                              VA average
                                                                     Minimum        percentile    Median   percentile           Maximum
Anytime in FY 2012
  Psychosocial treatment for pain                                      26.9            41.2          45.6          52.1            93.7            45.2
  Pain Clinic                                                          0.34             4.7           9.4          15.0            73.5             8.7
  Medication management/pharmacy reconciliation                         6.4            30.8          40.7          54.7            86.5            38.8
After first opioid prescription in FY 2012
  Psychosocial treatment for pain                                      12.1            30.7          35.8          41.4            79.8            35.1
  Pain Clinic                                                          0.24             3.6           7.3          11.7            62.2             6.8
  Medication management/pharmacy reconciliation                         5.2            21.6          29.4          40.8            75.0            29.2
1
    Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


Three quarters of the VAMCs provided Pain Clinic service to 15.0 percent or less of
their opioid patients in the FY, although 1 VAMC provided this service to 73.5 percent of
its patients. Across the VAMCs, 8.7 percent of the patients received the service.

Nearly 40 (38.8) percent of the patients received medication management or pharmacy
reconciliation during the FY, with the percentages varying from 6.4 to 86.5 across the
VAMCs. The middle half of the VAMCs provided the service to 30.8–54.7 percent of
their patients.

      Exhibit 33. Distribution of VA Medical Center (VAMC1) Percentages Providing 

       Psychosocial Treatment for Pain for Take-Home Opioid Patients in FY 2012 





        1
            Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.




VA Office of Inspector General                                                                                                                           35
                      VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


  Exhibit 34. Distribution of VA Medical Center (VAMC1) Percentages Providing 

          Pain Clinic Service for Take-Home Opioid Patients in FY 2012 





    1
        Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.


 Exhibit 35. Distribution of VA Medical Center (VAMC1) Percentages Providing
Medication Management/Pharmacy Reconciliation for Take-Home Opioid Patients
                                  in FY 2012




    1
        Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.




6. Prevalence of Serious Adverse Effects Among Take-Home Opioid
Patients
Exhibit 36 shows the prevalence of serious adverse effects among the opioid patients
that may be reasonably expected as a negative consequence of opioid therapy. Less


VA Office of Inspector General                                                                                                                       36
                        VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


than 1 percent of the population experienced each of these adverse effects anytime
during the FY except for the adverse effect of possible and confirmed suicide attempts,
which was evident for 2.0 percent of the opioid patients.

       Exhibit 36. Variations of VA Medical Center (VAMC1) Percentages of Serious 

        Adverse Effects in Patients Dispensed with Take-Home Opioids in FY 2012 

                                                                              Variations in VAMC percentages
                                                                              25th                     75th                                VA average
                                                            Minimum         percentile     Median    percentile            Maximum
Anytime in FY 2012
Any of the following adverse effects                            1.0             2.5            3.4            4.2              9.6                3.3
  Opioid overdose                                              0.00            0.23           0.40           0.72              4.0               0.49
  Sedative overdose                                            0.00            0.00           0.09           0.16             0.72               0.10
  Drug delirium                                                0.00            0.45           0.70           0.96              3.8               0.85
  Drug detoxification                                          0.00            0.04           0.12           0.26              2.2               0.16
  Acetaminophen overdose                                       0.00            0.10           0.24           0.46              2.6               0.30
  Possible and confirmed suicide attempts                      0.40            1.5            2.0            2.6              5.9                2.0
After first opioid prescription
Any of the following adverse effects                           0.63             1.5            2.2            2.9             7.4                 2.2
  Opioid overdose                                              0.00            0.17           0.29           0.50             2.5                0.33
  Sedative overdose                                            0.00            0.00           0.05           0.11             0.72               0.07
  Drug delirium                                                0.00            0.23           0.43           0.67             2.5                0.55
  Drug detoxification                                          0.00            0.02           0.08           0.18             1.1                0.11
  Acetaminophen overdose                                       0.00            0.04           0.14           0.27             2.2                0.19
  Possible and confirmed suicide attempts                      0.11            0.85            1.3            1.8             4.4                 1.3
1
    Includes all medical centers and Community-Based Outpatient Clinics that are under the same facility (Director) administrative leadership.




Conclusions
We integrated and analyzed the VA administrative files, as well as the Death
Master Files of the Social Security Administration, for the population of nearly half a
million VA patients who filled at least 1 oral or transdermal opioid prescription from VA
for self-administration at home in FY 2012.              We followed retrospectively the
442,544 patients in the population—who did not receive any hospice or palliative care
during the FY or within 1 year prior to their first take-home opioid prescription—for their
experience with the provision of VA opioid therapy. This population encompassed
some OEF/OIF era veterans, as well as veterans from other non-OEF/OIF service eras,
such as Operations Desert Shield and Desert Storm. As a result, the outcomes that we
observed in this population may be different from those of OEF/OIF veterans only.44

In this large-scale, population-based study of take-home opioid patients who did not
receive any hospice or palliative care during FY 2012 or within 1 year prior to their first
filled take-home opioid prescription in the FY, we found that 7.7 percent of VA patients
were on take-home opioids in FY 2012. The VAMC prevalence ranged from
0.26 percent to 21.8 percent. Because the decision to prescribe take-home opioids
should reflect individual patients’ clinical needs, higher VAMC prevalence alone does
not necessarily indicate overprescribing by the VAMC.

Approximately 87 percent of the opioid patients were diagnosed with primary pain site of
non-cancer origin that could result in pain serious enough to warrant an opioid

44
  Seal, K. H., Y. Shi, et al. (2012). “Association of mental health disorders with prescription opioids and high-risk
opioid use in US veterans of Iraq and Afghanistan.” JAMA 307(9): 940–947.


VA Office of Inspector General                                                                                                                          37
                 VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


medication. Nearly all (9.9 out of 10.5 percent) patients diagnosed with pain of the
nervous system and sense organs were also diagnosed with primary pain site. Six out
of 10 patients had been diagnosed with mental health issues, one third with mood
disorders, 1 of 5 with post-traumatic stress disorder (PTSD), and 1 of 7 with substance
use. Nearly 94 percent of the study population had been diagnosed with either pain or
mental health issues and 58.4 percent with both. We defined pain as either primary
pain site of non-cancer origin that could result in pain serious enough to warrant an
opioid medication or pain of the nervous system and sense organs, which might not
contain every pain diagnosis.

Approximately half of the study population were new patients in the sense that they
were initiated on take-home opioid therapy during FY 2012 after not having been on
take-home opioids for at least more than 1 year. Seven out of 10 of the non-chronic
(90 days or less on take-home opioids in FY 2012) users were new patients in contrast
to 1 in 5 of the chronic users (more than 90 days on take-home opioids in FY 2012).
Nearly 41 percent of the study population had been dispensed with 1 prescription, which
was composed entirely of the 61.4 percent of non-chronic users because none of the
opioids were allowed to be prescribed for more than 90 days in 1 prescription. Patients
with 6 or more prescriptions were mainly chronic users, which amounted to 69.3 percent
of that group. Thus, defining long-term opioid therapy as 6 filled prescriptions45 would
include approximately only 70 percent of the chronic users and very few non-chronic
users.

Opioid dosages with a morphine equivalent of at least 200 mg/day were dispensed to
1.2 percent of the study population, which accounted for 2.6 percent of chronic users
and 0.44 percent of non-chronic users. Because the goal of pain management is to
decrease pain to a level that allows the patient to continue routine activities, and there is
no maximum dose of opioids, the right dose of opioids is the dose that controls pain so
that the patient is functional. An opioid dosage of at least 200 mg/day morphine
equivalent alone is not an indicative of inappropriate prescribing.

We defined early refill of opioid prescriptions as the same opioid medication
(standardized based on generic name, route of administration, and dosage form) that
was dispensed before the end of any prior prescriptions. Researchers have used early
refill of more than 7 days as a proxy of high-risk opioid behavior.46 We found that refills
of opioids at least 7 days early occurred in 23.0 percent of the population, with refills of
at least 11 days early occurring in 14.0 percent of the population. As expected, early
refills were (at least 8 times) more likely and occurred more frequently among chronic
users than non-chronic users.

The concurrent use of benzodiazepines and opioids can be dangerous because opioids
and benzodiazepines can depress the central nervous system and thereby affect heart
rhythm, slow respiration, and even lead to death. Benzodiazepines have been strongly
45
   Krebs, E. E., D. C. Ramsey, et al. (2011). “Primary care monitoring of long-term opioid therapy among veterans

with chronic pain.” Pain Med 12(5): 740–746. 

46
   Seal, K. H., Y. Shi, et al. (2012). “Association of mental health disorders with prescription opioids and high-risk 

opioid use in US veterans of Iraq and Afghanistan.” JAMA 307(9): 940–947. 



VA Office of Inspector General                                                                                        38
                VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


associated with death from opioid overdose47 and with an increased risk of death due to
methadone toxicity.48 We found that take-home benzodiazepines were dispensed to
7.4 percent of the study population, with the percentage of chronic opioid users being
1.6 times that of the non-chronic users. We determined that 71 percent of the opioid
patients who received take-home benzodiazepines were dispensed benzodiazepines
concurrently with opioids. The percentage of chronic opioid users with concurrent
benzodiazepines was 92.6, and the percentage of non-chronic users was 53.6.

Acetaminophen poisoning is a leading cause of liver toxicity,49 and “Overdoses from
prescription products containing acetaminophen account for nearly half of all cases of
acetaminophen-related liver failure in the U.S., many of which result in liver transplant or
death.”50 We determined that take-home acetaminophens were given to 92.3 percent of
the study patients and that 2.0 percent of them were given an average daily dose of
4 g/day or more. We found that 45.5 percent of chronic users were given at least 1 day
dosage of 4 grams or more of acetaminophen and that 43.5 percent were given at least
1 day dosage of 4 grams or more concurrently with opioids, which were more than
double those (19.4 percent and 13.3 percent, respectively) of non-chronic users.

The Clinical Practice Guideline recommends a bowel regimen for all opioid patients to
manage opioid-related constipation. We found that 27.9 percent of the patients were
dispensed with a laxative in FY 2012 and that 23.5 percent of the patients were given a
laxative on or after the date of their first opioid prescription. The practice of dispensing
a laxative to opioid patients varied among 140 VAMCs, from 17.6 percent to
61.6 percent for the entire FY 2012 and from 12.7 percent to 56.0 percent at or after
patients’ first opioid prescription.

Patients sometimes do not take opioids as prescribed or use non-prescribed opioids. A
urine drug test (UDT) is useful for assessing adherence to therapy and detecting illicit
drug use. The Clinical Practice Guideline calls for a UDT prior to initiating opioid
therapy and a follow-up contact at least every 2–4 weeks after any change in
medication regimen. We measured whether new opioid patients—who were initiated
take-home opioids in FY 2012 after not having been on take-home opioids for at least
more than 1 year—received both a UDT prior to and a follow-up within 30 days of
initiating their opioid therapy in FY 2012. We determined that only 6.4 percent of the
new patients received both a UDT prior to and a follow-up within 30 days. We observed
broad variation among 140 VAMCs’ practice on this measure, ranging from 1.1 percent
to 32.2 percent, with the middle 50 percent of the VAMCs from 3.9 percent to
10.2 percent.


47
   Toblin, R. L., L. J. Paulozzi, et al. (2010). “Mental illness and psychotropic drug use among prescription drug

overdose deaths: a medical examiner chart review.” J Clin Psychiatry 71(4): 491–496. 

48
   Caplehorn, J. R. and O. H. Drummer (2002). “Fatal methadone toxicity: signs and circumstances, and the role of

benzodiazepines.” Aust N Z J Public Health 26(4): 358–362; discussion 362–353. 

49
   Larson, A. M., J. Polson, et al. (2005). “Acetaminophen-induced acute liver failure: results of a United States 

multicenter, prospective study.” Hepatology 42(6): 1364–1372. 

50
   http://www.fda.gov/downloads/ForConsumers/ConsumerUpdates/UCM239891.pdf. Last accessed 

November 27, 2013.



VA Office of Inspector General                                                                                    39
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


This very low (6.4 percent) VA rate of screening and monitoring patients almost
exclusively resulted from the very low rate of a UDT. Although nearly three quarters of
the patients received a follow-up contact within 30 days of initiating opioid therapy, only
7.6 percent of the patients had a UDT within 30 days prior to initiating therapy. Even for
the high-risk group of patients who were diagnosed with substance use disorder (SUD)
within 1 year prior to the initiation of opioid therapy, a UDT was performed for only 1 out
of 5.

The Clinical Practice Guideline requires routine and random UDTs to confirm the
appropriate use of opioids by patients and a follow-up contact at least once every
1–6 months for the duration of opioid therapy. We measured whether existing opioid
patients—who were on take-home opioids at least from FY 2011—received both an
annual UDT and a follow-up contact within 6 months of each filled opioid prescription.
We determined that only 37.0 percent of the existing opioid patients received both an
annual UDT and a follow-up contact within 6 months of each filled opioid prescription,
varying extensively from 4.2 percent to 91.0 percent among VAMCs.

The low (37.0 percent) VA rate of monitoring opioid patients using both an annual UDT
and a 6-month follow-up contact resulted mainly from the low rate of an annual UDT.
We found that 93.2 percent of the existing patients had at least 1 follow-up contact
within 6 months of each filled opioid prescription. In contrast, VA conducted an annual
UDT for only 37.9 percent of the existing opioid patients. We observed wide variation of
VAMCs’ practice of conducting an annual UDT, ranging from 4.4 percent to
87.6 percent. Even for the chronic (more than 90 days on take-home opioids in
FY 2012) opioid users, the annual UDT rate was only 40.9 percent, which was about
7 percentage points higher than the rate for the non-chronic (90 days or less on
take-home opioids in FY 2012) users (33.7 percent).

We found that 13.1 percent of the study population was diagnosed with active
substance use. The Clinical Practice Guideline specifies that chronic (for more than
1 month) opioid therapy is absolutely contraindicated in patients with active (not in
remission) SUDs who are not in treatment. It recommends that active substance use
patients receive SUD treatment concurrently with urine drug testing as an adjunctive
tool at regular intervals. For the active substance use patients who had at least 90 days
available for follow-up in FY 2012, we measured whether they received both a treatment
for substance use and a UDT within 90 days of each filled opioid prescription. We
determined that only 10.5 percent received both a treatment for substance use and a
UDT within 90 days of each filled opioid prescription. The percentages of VAMCs
varied from 0.00 to 44.8.

The low (10.5 percent) VA rate for treating substance use and conducting regular UDTs
for active substance use patients resulted from both low rates of treatment and UDTs.
We found that 31.2 percent of the active substance use patients received an SUD
treatment in FY 2012, ranging from 8.3 percent to 59.5 percent among 140 VAMCs.
We determined that 19.2 percent of the patients received at least 1 UDT within 90 days
of each filled prescription of take-home opioids, with the UDT percentages varying from
2.2 to 52.3 among VAMCs. Even for the subpopulation of 19,724 active substance use


VA Office of Inspector General                                                                  40
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


patients who were on opioids for more than 90 days in FY 2012, we determined that
only 18.8 percent of them received both an SUD treatment in the FY and a UDT for
each 90 days on opioids, with VAMC percentages ranging from 0.00 to 82.7.

Psychotherapy, including cognitive behavioral therapy, is recommended to reduce pain
and improve function in chronic pain patients. We found that 45.2 percent of the opioid
patients received at least 1 psychosocial treatment for pain and that 35.1 percent of
these patients received this treatment after their first filled opioid prescription in
FY 2012. The VAMC percentages for providing psychosocial treatments for pain
ranged from 26.9 to 93.7 in FY 2012. If patients were offered psychosocial treatment
for pain but declined, our data did not capture this.

Treatment of chronic pain involves a stepped care approach oriented toward recovering
or maintaining physical, social, and occupational function. This approach requires
increasing levels of expertise dependent upon the complexity of the pain concerns of
the individual veteran. In the most complex cases, such care will involve a broad array
of specialty rehabilitation, pain medicine, surgical, and complementary and alternative
medicine services. Referral to a Pain Clinic may be another approach to care. We
determined that 8.7 percent of the VA patients who had been prescribed opioids
received care from a VA Pain Clinic in FY 2012. Three quarters of the VAMCs provided
Pain Clinic service to 15.0 percent or less of their opioid patients in the FY, although
1 VAMC provided this specialty Pain Clinic service to 73.5 percent of its patients. Our
data did not capture all information about the broad array of specialty pain management
services, including consultative input from a Pain Clinic, if they were not coded as Pain
Clinic service.

Opioid patients frequently have complex co-morbid conditions, making them more likely
to be given multiple medications that can interact dangerously with opioid medications.
A review of medications by a pharmacist or other health care professional can prevent
harmful interactions between these medications. We found that 38.8 percent of the
opioid patients received medication management or pharmacy reconciliation during the
FY, with the percentages varying from 6.4 to 86.5 across the 140 VAMCs. The middle
half of the VAMCs provided the service to 30.8–54.7 percent of their opioid patients.

Increasing use of opioids has been associated with increasing rates of opioid-related
serious adverse effects. We determined percentages of opioid patients with evidence of
a serious adverse effect that may be reasonably expected to be related to opioid
therapy for the following six serious adverse effects: (1) opioid overdose, (2) sedative
overdose, (3) drug delirium, (4) drug detoxification, (5) acetaminophen overdose, and
(6) possible and confirmed suicide attempts. We found that less than 1 percent of the
population experienced each of these adverse effects during the FY, except for the
adverse effect of possible and confirmed suicide attempts that was evident in
2.0 percent of the opioid patients.

We defined days on opioids (or acetaminophen or benzodiazepines) by counting
overlapping supply days from different prescriptions once only rather than just taking a
simple sum of the number of supply days from all filled prescriptions as in the


VA Office of Inspector General                                                                  41
                 VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


literature.51,52 Although the computation is much more complex, our definition of days
on opioids better reflects the physical days a patient should be on opioids through
taking into account both partially and totally overlapping prescriptions. Totally
overlapping prescriptions may result from either intentional combination use of different
types of opioids (for example, morphine and hydrocodone) or unintentional combination
use of the same type of opioids to attain dosages that are not readily available by
manufacturers (for example, to reach a daily dose of 85 mg methadone, a patient may
be given both a filled prescription of 3 tablets of METHADONE HCL 5MG TAB and a
filled prescription of 7 tablets of METHADONE HCL 10MG TAB simultaneously).
Because days on opioids are less than or equal to the simple sum of the supply days,
our calculated daily doses using days on opioids (as the denominator) are greater than
or equal to those calculated based on just a simple sum of the supply days. Similarly,
our numbers of chronic users (more than 90 days on opioids) are less than or equal to
those calculated based on just a simple sum of the supply days.

We counted a clinical encounter as a follow-up contact for opioid therapy whether or not
patients were assessed for effectiveness of opioid therapy, adverse effects, and
adherence to therapy. These encounters were either in-person (inpatient care,
extended care, or outpatient visit) or by telephone. They did not include any in-person
visits to the emergency room or any encounters for reasons that were unlikely related to
follow-up for opioids, such as for compensation and pension, dental, organ donation, or
research.

We assessed VA FY 2012 patterns of dispensing take-home opioids and monitoring
patients who were treated with take-home opioids. This cross-sectional evaluation
provided us with a snapshot of VA FY 2012 practice for the population of all
non-hospice/palliative care patients who had at least 1 take-home opioid fill in the FY,
regardless of the difference in time when they were initiated on and ended take-home
opioid therapy. Because of the nature of cross-sectional data, our definition of chronic
users of opioids (more than 90 days) is relevant only to the given time period. For
example, the non-chronic (90 days or less) users in FY 2012 would really be chronic
users if they were initiated on opioid therapy during the 4th quarter of FY 2012 (that is,
new patients in FY 2012) and continued the therapy through FY 2013. This would also
apply to the non-chronic users in FY 2012 if they were initiated on and continued with
therapy through FY 2011 (that is, existing patients in FY 2012) but ended prior to the
2nd quarter of FY 2012. Similarly, chronic users in FY 2012 would not be chronic users
in FY 2013 if they were on take-home opioids for 90 days or less in FY 2013. (See
Exhibit X4 in Appendix A for examples.) Our results by chronic and non-chronic users
should be viewed within the context of this limitation that is common to cross-sectional
studies. For this reason, this study included all patients, whether on chronic (more than
1 month as defined by the CPG, p. 3) or non-chronic take-home opioid therapy.


51
   Seal, K. H., Y. Shi, et al. (2012). “Association of mental health disorders with prescription opioids and high-risk 

opioid use in US veterans of Iraq and Afghanistan.” JAMA 307(9): 940–947. 

52
   Edlund, M. J., B. C. Martin, et al. (2010). “Risks for opioid abuse and dependence among recipients of chronic 

opioid therapy: results from the TROUP study.” Drug Alcohol Depend 112(1-2): 90–98. 



VA Office of Inspector General                                                                                        42
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy



Recommendations
1.     We recommended that the Under Secretary for Health ensure that the practice of
prescribing acetaminophen is in compliance with acceptable standards.

2.     We recommended that the Under Secretary for Health ensure that VA’s practice
of routine and random urine drug tests prior to initiating and during take-home opioid
therapy to confirm the appropriate use of opioids is in alignment with acceptable
standards.

3.    We recommended that the Under Secretary for Health ensure that follow-up
evaluations of patients on take-home opioids are performed timely.

4.    We recommended that the Under Secretary for Health ensure that opioid patients
with active (not in remission) substance use receive treatment for substance use
concurrently with urine drug tests.

5.     We recommended that the Under Secretary for Health ensure that VA’s practice
of prescribing and dispensing benzodiazepines concurrently with opioids is in alignment
with acceptable standards.

6.    We recommended that the Under Secretary for Health ensure that medication
reconciliation is performed to prevent adverse drug interactions.




VA Office of Inspector General                                                                  43
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy
                                                                                       Appendix A

                        Appendix A. Additional Exhibits

               Exhibit X1. Calculation of Days on (Opioid) Prescriptions




VA Office of Inspector General                                                                  44
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy




                       Exhibit X2. Concurrent Use and Early Refills




VA Office of Inspector General                                                                  45
                                                           VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy



 Exhibit X3. Data Files Used in OIG Statistical Analysis




VA Office of Inspector General                                                                                                               46
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy




           Exhibit X4. Chronic (> 90 days) Users in Cross-Sectional Study




VA Office of Inspector General                                                                  47
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy
                                                                                      Appendix B1

          Codes for Identifying Hospice and Palliative Care

ICD-9-CM diagnostic code: V66.7. 


Treating specialty codes: 96, 1F. 


CPT/HCPS codes: G9054, G0182, G0337, Q5001–Q5010, S0255, S0271, S9126, 

T2042, T2043, T2045, T2046.


Clinic stop codes: 351, 353. 





VA Office of Inspector General                                                                  48
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy
                                                                                      Appendix B2

          VA Intermediate Product Numbers for Identifying 

                         Urine Drug Tests 

                     by Test Substance Type 


Tests for heroin or morphine: 00467, 00537, 00753, 00754, 00755, 49338, 49339,
82227–82229, 82231, 83304, 83455, and 83510.

Tests for non-morphine opioid compounds: 00608, 00664, 00710, 00711,                       00721,
00727, 00734, 00759, 00780, 00784, 00786, 00788, 00808, 00864, 49340,                      49355,
57854, 73744, 81952, 81996, 82166, 82230, 82232–82236, 82448, 82449,                       82458,
82972, 83005, 83162, 83261, 83402, 83439, 83462, 83506, 83508, 83509,                      83511,
83727, 83859, 83862, 84383, 84398, 91141, 91210, and 91211.

Tests for non-opioid abusable substances: 00466, 00470, 00499, 00523, 00525,
00562, 00575, 00580, 00584, 00596–00601, 00606, 00607, 00611–00614, 00660,
00661, 00663, 00675, 00684–00688, 00700, 00724, 00729, 00730, 00732, 00735,
00737, 00738, 00742, 00745, 00769, 00779, 00785, 00790, 00803, 00811, 00821,
00832, 00846, 00856–00863, 45095, 45110, 49337, 49350, 49353, 53008, 54720,
56922, 62505, 63308, 65398, 66031, 69135, 81882, 81997, 82019, 82031, 82092–
82094, 82225, 82441, 82451–82456, 82997, 83000–83003, 83009–83011, 83022,
83027, 83028, 83160, 83246, 83252, 83262, 83281, 83588, 83638, 83704, 83713,
83730, 83773, 83796, 83798, 83889, 83927, 83931, 83945, 83967, 84064, 84075,
84098, 84099, 84100, 84101, 84112, 84172, 84173, 84175, 84336, 84388, 85161,
91156, and 91157.




VA Office of Inspector General                                                                  49
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy
                                                                                       Appendix C
               Under Secretary for Health Comments


               Department of
               Veterans Affairs                                   Memorandum


           Date:       April 22, 2014

          From:        Under Secretary for Health (10)

       Subject: 	      OIG Draft Report, VA Patterns of Dispensing Take-Home
                       Opioids and Monitoring Patients on Opioid Therapy
                       (Project No. 2014-00895-HI-0378) (VAIQ 7462279)

             To:       Assistant Inspector General for Healthcare Inspections (54)

       1. I have reviewed the draft report and concur with the report’s
          recommendations. Attached is the Veterans Health Administration’s
          corrective action plan for recommendations 1–6.

       2. OIG’s report provides important baseline data for understanding how
          VHA practitioners were prescribing opioids 2 years ago. Since that
          time, VHA has initiated several new modalities for improving pain care,
          including: pain schools, tele-pain schools, smartphone type
          applications and web based modules for patient and family education,
          case based audio conferences, Nation-wide community of practice
          calls, self-management strategies, and complementary and integrative
          medicine modalities.

       3. Compared to October 2012, as of November 2013:
           39,088 fewer Veterans received an opioid prescription from VA;
           80,294 more Veterans who had been prescribed opioids underwent
              urine drug screens; and
           9,609 fewer Veterans were receiving prescriptions for both
              benzodiazepines and opioids.
          VA expects these trends to continue as it promotes the safe and
          effective pharmacologic and non-pharmacologic stepped care model of
          pain management.




VA Office of Inspector General                                                                  50
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy




       4. This year VHA issued the Opioid Safety Initiative (OSI) requirements to
          all Veterans Integrated Service Networks (VISN). The purpose of the
          initiative is to ensure pain management is addressed thoughtfully,
          compassionately, and safely. The nine goals of OSI are:

           Goal 1      Educate prescribers of opioid medication regarding effective
                       use of urine drug screening;
           Goal 2      Increase the use of urine drug screening;
           Goal 3      Facilitate the use of state prescription databases;
           Goal 4      Establish safe and effective tapering programs for the
                       combination of benzodiazepines and opioids;
           Goal 5      Develop tools to identify higher risk patients;
           Goal 6      Improve prescribing practices around long-acting opioid
                       formulations;
           Goal 7      Review treatment plans for patients on high doses of
                       opioids;
           Goal 8      Offer Complementary and Alternative Medicine (CAM)
                       modalities for chronic pain at all facilities; and
           Goal 9      Develop new models of mental health and primary care
                       collaboration to manage prescribing of opioids and
                       benzodiazepines in patients with chronic pain.

       5. Through promulgation of new regulations, VHA providers can now
          access the state Prescription Drug Monitoring Programs (PDMP).
          These programs, with appropriate health privacy protections, provide
          VHA prescribers with access to information on prescribing and
          dispensing of controlled substances that Veterans obtain from outside
          the VA health care system. Participation in PDMPs helps VHA
          providers identify potentially vulnerable at-risk individuals and offers
          them greater opportunities to talk with patients about whether opioids
          are effective in managing their pain.

       6. As of January 2014, VHA has 10 sites with Commission on
          Accreditation of Rehabilitation Facilities (CARF); 11 more sites are
          actively preparing or applying for CARF status. These Centers have
          the capacity for providing advanced pain medicine diagnostics, surgical
          and interventional procedures, and intensive, integrated chronic pain
          rehabilitation for Veterans with complex, co-morbid, or treatment
          refractory conditions. In 2009, there were only two CARF sites in VHA.

       7. I am confident that the work VHA is doing coupled with the important
          information in OIG’s report will result in more accessible, safe, and
          effective pain care that will be responsive to the needs of Veterans and
          will enhance the quality of their lives.




VA Office of Inspector General                                                                  51
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy




       8. Thank you for the opportunity to review the draft report. 	If you have
          any questions, please contact Karen Rasmussen, M.D., Director,
          Management Review Service (10AR) at (202) 461-6643 or by email at
          VHA10ARMRS2@va.gov.




           Attachment




VA Office of Inspector General                                                                  52
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy




                          Under Secretary for Health’s Comments
                          to Office of Inspector General’s Report


       OIG Draft Report, Healthcare Inspection: VA Patterns of Dispensing
       Take-Home Opioids and Monitoring Patients on Opioid Therapy

       Date of Draft Report: April 6, 2014

       Recommendations/               Status                Completion Date
       Actions

       OIG Recommendations

       1. We recommended that the Under Secretary for Health ensure that the
       practice of prescribing acetaminophen is in compliance with acceptable
       standards.

       VHA Comments

       Concur

       The Office of Inspector General (OIG) review found that some patients
       who were prescribed acetaminophen could have exceeded the maximum
       recommended dosage of 4 grams per day. The Veterans Health
       Administration (VHA) agrees that safe prescribing of all medications,
       including acetaminophen, is an essential aspect of patient safety.

       The Department of Veterans Affairs (VA) has taken steps to enhance
       prescribing and prescription fulfillment processes to prevent the types of
       situations described by OIG and to meet OIG’s intent to ensure safe
       prescribing of acetaminophen. VA developed a software system called
       Medication Order Check Healthcare Application (MOCHA) that notifies a
       prescriber when the single maximum dose ordered of any drug, including
       acetaminophen, exceeds the Food and Drug Administration
       recommended standards. MOCHA alerts prescribers when more than one
       medication containing acetaminophen is ordered to prevent cumulative
       excessive doses. VA’s Office of Information and Technology (OI&T)
       started deploying MOCHA maximum dosage checks to VA medical
       centers in March 2014, and expects the system to be fully deployed by
       end of fiscal year (FY) 2014.




VA Office of Inspector General                                                                  53
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


       VHA is concerned that OIG didn’t consider the instructions for use on the
       prescription label, which is one of the critical elements of safe prescribing.
       Additionally, the report may have overestimated the number of patients
       whose prescriptions could have exceeded the maximum recommended
       dose because the study methodology of tracking dispensing does not take
       into account the delivery lag time required to mail prescriptions to patients.
       Prescription dispensing is purposely overlapped so the patient does not
       run out of medications while waiting for the next refill in the mail. Once
       VA’s consolidated mail outpatient pharmacy (CMOP) fills a prescription, it
       enters the mail stream for delivery, which on average takes 2.5 days to
       reach the patient; CMOP dispenses approximately 80 percent of all VA
       prescriptions.

       To address this recommendation, VHA will:

       	 Work with VA’s OI&T to complete full implementation of MOCHA
          maximum dosing checks to all medical centers by the end of FY 2014.

       	 Pharmacy Benefits Management (PBM) Services office will educate
          providers about the vulnerabilities associated with patients exceeding
          the maximum recommended acetaminophen dosage using newsletters
          or other communications.

      To complete this action, VHA will provide documentation of:

       1) Certification that VA’s OIT has deployed MOCHA across the entire
          VHA health care system; and
       2) PBM communications to providers about exceeding maximum
          recommended dose of acetaminophen.
                                      In process 	                  September 30, 2014

       2. We recommended that the Under Secretary for Health ensure that VA’s
       practice of routine and random urine drug tests prior to initiating and
       during take-home opioid therapy to confirm the appropriate use of opioids
       is in alignment with acceptable standards.

       VHA Comments

       Concur

       Although VHA’s current acceptable standard of practice does not initiate
       Urine Drug Tests (UDTs) for the short term use of opioid analgesics for
       acute pain when there is no intent for long-term (greater than 90 days)
       opioid prescribing, VHA concurs with the recommendation to initiate UDTs
       in chronic opioid therapy for chronic pain.




VA Office of Inspector General                                                                  54
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


       The National Program Director for Pain (Specialty Care Services) will work
       with other offices to advise the lead office, the Assistant Deputy Under
       Secretary for Health (ADUSH) for Clinical Operations, to develop and
       disseminate interim guidance to the field. Veterans Integrated Service
       Networks (VISN) and facilities will monitor adherence to the guidance
       through the routine review of data from the Opioid Safety Initiative (OSI)
       Dashboard, and will provide feedback on outliers where needed.

       To complete this action, VHA will provide documentation of:

       1) The Deputy Under Secretary for Health for Operations and
          Management issuance of interim guidance to the field on the practice
          of routine and random UDTs prior to initiating and during take-home
          long-term opioid therapy;
       2) One quarter of data demonstrating monitoring of interim guidance on
          UDTs from the OSI dashboard and feedback on adherence to outliers
          through the Opioid Safety Initiative; and
       3) Two examples of corrective action plans.

                                      In process                     February 28, 2015

       3. We recommended that the Under Secretary for Health ensure that
       follow-up evaluations of patients on take-home opioids are performed
       timely.

       VHA Comments

       Concur

       The Pain Management Program Office will coordinate with Primary Care
       Services to develop clinical guidance recommendations for dissemination
       to field. The clinical guidance recommendations for facilities will help to
       ensure timely follow-up evaluations of patients prescribed take-home
       opioid analgesics, depending on the Veteran’s specific clinical status such
       as pain severity, clinical complexity (e.g., medical and psychiatric
       co-morbidities), and risk.

       The Pain Management Program Office will coordinate with Primary Care
       Services to disseminate the clinical recommendations through VHA
       Primary Care Services and Patient Aligned Care Team (PACT)
       educational programs, the VHA Pain Management Program’s VISN and
       facility points of contact, and the VHA’s pain web site.

       To complete this action, VHA will provide documentation of:

       1) Clinical guidance recommendations regarding timely follow-up of
          patients on take-home opioids, and



VA Office of Inspector General                                                                  55
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


       2) Dissemination of the recommendations through VHA Primary Care
          Services, PACT Education Programs, VHA Pain Management
          Programs, VISN and facility points of contacts, and VHA’s pain web
          site.

                                      In process                    December 31, 2014

       4. We recommended that the Under Secretary for Health ensure that
       opioid patients with active (not in remission) substance use receive
       treatment for substance use concurrently with urine drug tests.

       VHA Comments

       Concur

       The Pain Management Program Office, Pharmacy Benefits Management
       Office, and Mental Health Office will work with the Office of the ADUSH for
       Clinical Operations to develop the capability to monitor whether patients
       using opioid analgesics for chronic pain, who also are diagnosed with
       substance use disorder (not in remission), are provided appropriate UDTs
       and also provided access to appropriate addiction/mental health specialty
       care.

       To complete this action, VHA will provide documentation of guidance to
       the field on UDTs for patients prescribed opioids for chronic pain also with
       substance abuse disorder not in remission, by December 2014.

                                      In process                     February 28, 2015

       5. We recommended that the Under Secretary for Health ensure that VA’s
       practice of prescribing and dispensing benzodiazepines concurrently with
       opioids is in alignment with acceptable standards.

       VHA Comments

       Concur

       VHA will use the OSI Project Dashboard to identify patient’s co-prescribed
       benzodiazepines and opioids, and will provide clinically appropriate and
       safe tapering programs when clinically indicated. In coordination with OSI,
       VHA will develop a plan to provide guidance that supports safe and
       effective tapering when clinically indicated.
       To complete this action, VHA will provide documentation of:
       1) Regular monitoring of co-prescribing;
       2) Use of specialty support to providers;
       3) Reduced new starts on co-prescribed opioids and benzodiazepines;
          and


VA Office of Inspector General                                                                  56
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy


       4) Over-all reduction of co-prescribed opioids and benzodiazepines.

                                      In process                    December 31, 2014

       6. We recommended that the Under Secretary for Health ensure that
       medication reconciliation is performed to prevent adverse drug
       interactions.

       VHA Comments

       Concur

       Medication reconciliation has been an evolving aspect of VA clinical care
       that is now standardized in accordance with the Medication Reconciliation
       Directive (VHA Directive 2011-012). The Essential Medication Information
       Standards Directive (VHA Directive 1164, currently in concurrence) will
       provide further direction by outlining essential patient medication
       information for management, communication, and review. The process of
       medication reconciliation is being monitored via a Medication
       Reconciliation External Peer Review Program as a quality indicator for VA
       care. Internally, Medication Reconciliation is measured by facilities often
       with tracer methodologies.      A VA Medication Reconciliation/Patient
       Medication Information Overarching Strategy is under development for
       submission to VHA leadership.

       To complete this action, VHA will provide documentation of:

       1) Publication of the Essential Medication Information Directive
          (VHA 1164, currently in concurrence); and
       2) Leadership’s     briefing    regarding    the    VA     Medication
          Reconciliation/Patient Medication Information Overarching Strategy
          recommendations.

                                      In process                     February 28, 2015




       Veterans Health Administration
       April 2014




VA Office of Inspector General                                                                  57
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy
                                                                                       Appendix D

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Limin X. Clegg, Ph.D., Director
                         Daisy Arugay-Rittenberg, MT
                         Elizabeth Bullock
                         Nathan McClafferty, MS
                         Ronald R. Penny, BS 

                         Patrick Smith, M. Stat 





VA Office of Inspector General                                                                  58
              VA Patterns of Dispensing Take-Home Opioids and Monitoring Patients on Opioid Therapy
                                                                                       Appendix E

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
Office of General Counsel

Non-VA Distribution

Senate Committee on Veterans’ Affairs
House Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget


This report is available on our web site at www.va.gov/oig.




VA Office of Inspector General                                                                  59
